      United States Department of Agriculture




Office of Inspector General
Semiannual Report to Congress

First Half
October 1, 2013-March 31, 2014




                                       Fiscal Year 2014
                                       No. 71
                                       May 2014
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD—October 2013-March 2014

SUMMARY OF AUDIT ACTIVITIES

Reports Issued
     Number of Final Reports                                                                          17

     Number of Interim Reports                                                                         0

     Number of Final Report Recommendations (74 program                                               95
     improvement / 21 monetary)
     Number of Interim Report Recommendations                                                          0

Total Dollar Impact of Reports at Issuance (Millions)                                              $104.1
     Questioned/Unsupported Costs                                                                    $0.9
     Funds To Be Put To Better Use                                                                 $103.2
Management Decisions Reached
   Number of Reports                                                                                   8

     Number of Recommendations* (28 program improvements / 14 monetary)                               42
SUMMARY OF INVESTIGATIVE ACTIVITIES

Reports Issued                                                                                       178
Impact of Investigations

     Indictments                                                                                     312
     Convictions                                                                                     270
     Arrests                                                                                         507
Total Dollar Impact (Millions)                                                                     $231.8

Administrative Sanctions                                                                             182

OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2013)
(1) Interagency Communication, Coordination, and Program Integration Need Improvement
Related material can be found on page 11.
(2) USDA Needs to Create Strong, Integrated Internal Control Systems Across Programs
Related material can be found on pages 5, 16, 17, and 19.
(3) Information Technology Security Needs Continuing Improvement
Related material can be found on pages 18 and 19.
(4) Departmental Outreach Efforts Need to be More Transparent
Related material can be found on page 18.
(5) A Proactive, Integrated Strategy Is Necessary to Increase Agricultural Commerce and Trade
No work reported during this period.
(6) Action Needed to Improve Natural Resources Stewardship
No work reported during this period.
(7) Food Safety Inspection Systems Need Improved Controls
No work reported during this period.
(8) Identifying, Reporting, and Reducing Improper Payments Can Strengthen USDA Programs
No work reported during this period.
(9) USDA Needs to Increase Efforts for Appropriately Training and Preparing Human Resources
No work reported during this period.
(10) FNS Needs to Strengthen SNAP Management Controls
No work reported during this period.
*Please refer to examples of program improvement recommendations cited on the inside back cover.
Message from the Inspector General
I am pleased to provide the Semiannual Report to Congress (SARC) for the Office of Inspector General
(OIG), U.S. Department of Agriculture (USDA), for the 6-month period ending March 31, 2014. Overall,
our investigations and audits have led to significant accomplishments during this period, including
507 arrests, 270 convictions, $231.8 million in investigative monetary results, 74 program improvement
recommendations, and $104.1 million in audit financial recommendations.

OIG continues to work extensively with the Department, Congress, and other Federal agencies to ensure
the integrity and efficiency of USDA programs, safeguard the taxpayers’ investment in these programs,
and pursue those who abuse them. Our activities are described according to our strategic goals, as
outlined in the OIG Strategic Plan for fiscal years (FY) 2013-2018:

   Safety, Security, and Public Health—As a result of OIG’s investigation of allegations of the
    mistreatment of cattle destined for slaughter and the adulteration of meat distributed to the
    National School Lunch Program, six defendants agreed to a civil settlement in which they agreed to
    pay $155 million to the United States. The other defendants agreed to pay amounts ranging from
    $10,000 to $75,000 to an animal welfare group, and from $240,000 to $1.8 million to the U.S.
    Government. During the next reporting period, we expect to issue audit reports related to the
    Animal and Plant Health Inspection Service’s (APHIS) Plant Protection and Quarantine preclearance
    program and the Food Safety and Inspection Service’s (FSIS) implementation of the Public Health
    Information System for domestic inspection.

   Integrity of Benefits—OIG continues its work to safeguard the integrity of the Supplemental
    Nutrition Assistance Program (SNAP); our cases have resulted in 213 SNAP-related convictions and
    $32.8 million in monetary results during this reporting period. In a particularly noteworthy case, a
    husband and wife who owned six retail stores in California were sentenced to serve 40 and
    18 months in prison, respectively, and to pay over $6.5 million in restitution. We also found that
    USDA agencies should strengthen controls over Trade Adjustment Assistance for Farmers (TAAF), a
    program authorized by the American Recovery and Reinvestment Act of 2009. While we found that
    information was reported on Recovery.gov as required, the three USDA agencies involved did not
    have the appropriate controls in place to ensure that TAAF participants were eligible, payments
    were accurate, or oversight was sufficient.

   Management Improvement Initiatives—OIG determined that the National Agricultural Statistics
    Service (NASS) needs to enforce critical procedures and physical security measures meant to protect
    the security of NASS information. Notably, although they are banned, OIG was able to bring a cell
    phone into lockup and witnessed a reporter using an iPad during lockup. As a result, sensitive
    information could be compromised or leaked before its official release, which could adversely affect
    equitable trading in commodity markets. OIG also evaluated the claims process for the In re Black
    Farmers Discrimination Litigation (BFDL) settlement before the deciding official finalized decisions
    regarding claims. Overall, we found that the claims process was implemented in accordance with
    the BFDL settlement agreement. We did, however, identify three findings. In response, the claims
    administrator and the deciding official addressed our findings and detailed actions they planned to
    take prior to the final adjudication of claims.
I also wish to note that OIG has revised how it reports its accomplishments in its semiannual reports,
adding several charts so that readers can better track certain reporting categories. For details of the
additional material we are reporting, please see page 24.

Our accomplishments are the direct result of the dedicated work of USDA OIG’s professional staff and
exemplify our commitment to ensuring the efficiency and effectiveness of the programs USDA
administers. Our success is also due, in large part, to the continued support and interest of USDA
Secretary Thomas J. Vilsack, Deputy Secretary Krysta Harden, and interested Committees and Members
of Congress.




Phyllis K. Fong
Inspector General
Table of Contents

Safety, Security, and Public Health .......................................................................... 1
Integrity of Benefits.................................................................................................. 5
Management Improvement Initiatives ................................................................. 16
Reporting Requirements ........................................................................................ 24
Gauging the Impact of OIG..................................................................................... 25
Performance Results Total Under Our Strategic Goals ........................................ 26
Peer Reviews and Outstanding Recommendations ............................................. 27
Appendix A—Audit Tables ..................................................................................... 28
Appendix B—Investigation Tables ......................................................................... 48
Appendix C—Freedom of Information Act Activities ........................................... 51
Safety, Security, and Public Health
OIG Strategic Goal 1:
Strengthen USDA’s ability to implement safety and security measures to protect the public health, as well as agricultural
and Departmental resources

To help USDA and the American people meet critical challenges in safety, security, and public health, OIG provides
independent audits and investigations in these areas. Our work addresses such issues as the ongoing challenges of
agricultural inspection activities, safety of the food supply, and homeland security.

In the first half of FY 2014, we devoted 7.5 percent of our total direct resources to Goal 1, with 100 percent of these resources
assigned to critical-risk and high-impact work. A total of 86 percent of our investigative cases under Goal 1 resulted in
criminal, civil, or administrative action. OIG’s investigations under Goal 1 yielded 3 indictments, 21 convictions, and
$172.4 million in monetary results during this reporting period. OIG did not issue any audit reports under Goal 1 during this
reporting period, but has significant ongoing work related to food safety (see page 4 for a list of ongoing reviews).

.
EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                             misdemeanor counts of cruelty to animals and movements of
FOR GOAL 1                                                           a non-ambulatory animal. In March 2008, one of the
                                                                     employees pled guilty to three misdemeanor counts and was
$155 Million Settlement Approved Against California                  sentenced to 180 days in county jail, 24 months’ probation,
Slaughter Facility                                                   and ordered to pay a fee to the victim’s restitution fund. The
                                                                     same employee was deported after his 180 days of time
As a result of an investigation of allegations of the                served was completed. In June 2008, the other employee
mistreatment of cattle destined for slaughter and the                pled guilty to two misdemeanor counts and two felony
adulteration of meat distributed to the National School Lunch        counts. In September 2008, he was sentenced to 270 days’
Program, a California probate court in November 2013                 incarceration and 36 months’ probation.
approved a multi-million-dollar settlement agreement.
Six defendants agreed to a civil settlement in which one of          Nebraska Meat Company Owners Sentenced for Roles in
the subsidiary companies agreed to enter into a consent              Distributing Mislabeled and Uninspected Meat
judgment of $155 million in favor of the United States. The
other defendants agreed to pay the United States                     In December 2013, in U.S. District Court, District of Nebraska,
approximately $2.7 million and to pay an animal welfare              the co-owner of a meat processing plant that distributed
group approximately $112,000. Two defendants had                     mislabeled and uninspected meat was sentenced to
previously entered into a settlement agreement to pay the            18 months of incarceration, followed by 12 months of
United States over $304,000 and to pay an animal welfare             supervised release, and ordered to pay a fine of $8,450 and a
group over $19,000. The settlements resulted from a qui tam          $100 special assessment. His wife was sentenced in March
civil complaint filed by the animal welfare group against the        2014 to 24 months of probation and ordered to pay a
company and its entities, which prompted an investigation by         $25 special assessment fee. Our investigation determined
OIG and the U.S. Attorney’s Office for the Central District of       that the couple, who owned the plant, directed their
California. Additionally, in December 2013, the U.S. Court of        employees to falsely label packages of ground beef with the
Federal Claims ruled in favor of the Government’s                    Federal mark of inspection, although the packages contained
counterclaim, in the amount of $13.6 million, which stemmed          meat that had been processed without USDA inspection. The
from a civil suit filed by one of the companies in April 2009.       mislabeled meat products were sold to a public school
                                                                     system. Uninspected meat products were also sold to a food
OIG’s involvement in this matter dates back to                       cooperative. The owners were charged with violations of the
February 2008, when both civil and criminal investigations           Federal Meat Inspection Act. The man pled guilty in
were initiated into the allegations. That month, the San             September 2013 to the sale of misbranded meat. His wife
Bernardino District Attorney’s Office filed complaints in the        pled guilty in October 2013 to a misdemeanor count of sale of
Superior Court of California, County of San Bernardino,              misbranded meat.
against two company employees for multiple felony and

                                                                 1
Two California Brothers Attempt to Steal a Truckload of Beef         Animal and Plant Health Inspection Service (APHIS) inspector
                                                                     to induce his victims to wire funds to him; he then sent
In January 2014, a man was sentenced in U.S. District Court,         uninspected wood products to foreign victims, or sent no
District of Kansas, to 12 months and 1 day in prison followed        products at all. In addition, our investigation revealed that
by 24 months of supervised release, and his brother was              the salesman was a fugitive from justice being sought in
sentenced to 12 months of supervised release. The                    five States. In October 2012, he and his fiancée were
two brothers attempted to steal a truckload of beef valued at        arrested. Two co-conspirators were subsequently arrested,
$87,000 from a meat plant in southwest Kansas. They                  including the salesman’s estranged wife. All were
pretended to be operating as a legitimate trucking company           subsequently charged with conspiracy to commit wire fraud
that had a contract to transport the meat. Their attempt to          and wire fraud, and the salesman was charged with
steal the trailer of meat was unsuccessful due to a suspicious       aggravated identity theft. The salesman pled guilty and was
freight broker who noticed irregularities in paperwork and           sentenced in January 2014 to 116 months’ imprisonment to
contacted law enforcement.                                           be followed by 36 months’ supervised release, and was
                                                                     ordered to pay a $500 special assessment. The judge will rule
Timber Fraudster Apprehended and Sentenced to More                   on proposed restitution in the amount of $1.1 million at a
than 9 Years in Prison                                               later date. The salesman’s fiancée entered into a deferred
                                                                     prosecution agreement with the Government. One co-
A salesman representing numerous lumber companies
                                                                     conspirator pled guilty in January 2014; his sentencing is
engaged in fraudulent transactions totaling more than
                                                                     pending and trial is pending for the other co-conspirator.
$1 million with U.S. companies as well as international
customers in China, Egypt, Poland, and Vietnam. In a variety
of transactions, the salesman transmitted fraudulent
phytosanitary certificates with the forged signature of an




                                                                 2
GOVERNMENTWIDE ACTIVITIES—GOAL 1                                         San Bernardino Rural Crimes Task Force and San
                                                                          Bernardino Animal Cruelty Task Force. OIG is one of
Participation on Committees, Working Groups, and Task                     several law enforcement agencies participating on task
Forces                                                                    forces to combat crimes in rural areas in southeastern
                                                                          California, with a special focus on animal-fighting
                                                                          investigations.
   The Federal Bureau of Investigation’s (FBI) National and
    Local Joint Terrorism Task Forces. One OIG special agent
    is assigned full time to the national task force, and other
    special agents work with local task forces. While the
    national task force special agent attends threat briefings
    and provides terrorist intelligence products to OIG and
    other USDA agencies and offices, local task forces work
    on matters that involve both the investigation of criminal
    activity and intelligence-gathering concerning individuals
    or entities that may have connections to terrorist activity
    or may provide support for terrorist activity. Overall,
    OIG’s participation provides an excellent conduit for
    sharing critical law enforcement intelligence and has
    broadened FBI’s and other law enforcement agencies’
    knowledge of how to conduct criminal investigations
    connected to food and agriculture.

   FBI’s Joint Interagency Agroterrorism Working Group.
    OIG’s Emergency Response Team continues to
    participate in this working group, which develops
    protocols and procedures for FBI, APHIS, and OIG to
    coordinate their response to agroterrorism.

   U.S. Marshals Service Fugitive Task Forces. OIG agents in
    Michigan, Minnesota, Mississippi, North Dakota, and
    Ohio participate on these task forces, which were
    established under the Presidential Threat Protection Act
    of 2000. The purpose of these task forces is to locate
    and apprehend the most dangerous fugitives and assist
    in high-profile investigations. In addition to providing
    assistance in locating fugitives, task forces can provide
    help in serving warrants.

   Arrowhead Counter-Terrorism Task Force. OIG
    participates in a group of regional law enforcement and
    emergency response providers, led by the FBI field office
    in Duluth, Minnesota, which meets monthly for training
    sessions and to share information on various terrorist
    organizations, as well as related topics such as crisis
    response scenarios.

   Anti-Terrorism Advisory Councils. OIG participates on
    Anti-Terrorism Advisory Councils in many judicial districts
    throughout the country. These councils are umbrella
    organizations including local, State, and Federal agencies
    and private-sector security representatives that work
    with the U.S. Attorney’s Offices for their geographic
    areas to disrupt, prevent, and prosecute terrorism
    through intelligence-sharing, training, strategic planning,
    policy review, and problem-solving.



                                                                  3
ONGOING REVIEWS FOR GOAL 1


      implementation of the Public Health Information
       System for Domestic Inspection (Food Safety and
       Inspection Service (FSIS)),
      ground turkey inspection and safety protocols
       (FSIS),
      controls over introduction of genetically
       engineered organisms (APHIS),
      Wildlife Services—wildlife damage management
       (APHIS),
      procurement and inspection of fruits and
       vegetables (Agricultural Marketing Service (AMS)),
      Plant Protection and Quarantine Preclearance
       Program (APHIS),
      adequacy of controls to prevent the release of
       sensitive technology (Agricultural Research Service
       (ARS)), and
      oversight of research facilities (APHIS).




                                                             4
Integrity of Benefits
OIG Strategic Goal 2:
Reduce program vulnerabilities and strengthen program integrity in the delivery of program assistance

OIG conducts audits and investigations to ensure or restore integrity in various
                                                                                         Management Challenges Addressed
USDA benefit and entitlement programs, including a variety of programs that              Under Goal 2
provide payments directly and indirectly to individuals or entities. Some of the          Interagency Communication,
                                                                                            Coordination, and Program
programs are among the largest in Government: SNAP alone accounts for
                                                                                            Integration Need Improvement
approximately $82 billion in FY 2014 benefits, while over $17 billion is spent on           (Challenge 1)
                                                                                          USDA Needs to Create Strong,
USDA farm programs. Intended beneficiaries of these programs include the
                                                                                            Integrated Internal Control
working poor, hurricane and other disaster victims, and schoolchildren, as well as          Systems Across Programs
                                                                                            (Challenge 2)
farmers and other rural residents. These programs support nutrition, farm
production, and rural development.

In the first half of FY 2014, we devoted 47.3 percent of our total direct resources to Goal 2, with 91.3 percent of these
resources assigned to critical/high-impact work. A total of 100 percent of our audit recommendations under Goal 2 resulted
in management decision within 1 year, and 83 percent of our investigative cases resulted in criminal, civil, or administrative
action. OIG issued three audit reports under Goal 2 during this reporting period. OIG’s investigations under Goal 2 yielded
305 indictments, 244 convictions, and about $58.9 million in monetary results during this reporting period.



.
EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                             Also, RD’s Procurement Management Division did not
FOR GOAL 2                                                           adequately review unliquidated obligations that were inactive
                                                                     for over a year to ensure funds were still needed.
Rural Development (RD) Needs to Improve Its Monitoring of            Procurement staff believed they could wait until the contract
Funding for Procurement Contracts                                    was completed to deobligate excess funds. As a result, we
                                                                     identified $1.2 million in excess funds that did not have
OIG found that during FYs 2009-2012, Rural Development               justification in the contract file to remain obligated. In
(RD) funded a contract in the amount of $99.9 million, while         addition, RD does not have assurance that obligation
expending a total of only $1.6 million during the                    balances were properly reported, used in the appropriate
 4-year period. Although RD deobligated $61.5 million in the         period, or made available for other uses. RD concurred with
third year, it continued its practice of significantly over-         our recommendations and has instituted contract and
funding the contract for the next 2 years. In this case,             procurement management controls and training. (Audit
RD staff requested excessive funds without considering               Report 50601-0001-41, Rural Development Procurement
current and prior year expenditures, and the contracting             Controls)
officer authorized the obligation of funds without ensuring
the amounts were needed. As a result, the contract was               RBS Needs to Consolidate Duplicate Programs
over-funded by almost $36.8 million, which prevented the
funds from being allocated to other Government projects or           OIG found that, while Congress created each Rural Business-
programs.                                                            Cooperative Service (RBS) grant and loan program to serve
                                                                     specific needs, additional programs added over the years
                                                                     have led to overlapping goals and objectives. We examined

                                                                5
nine RBS programs, and found that five have areas of                   were secured in his own name, as well as 94 head of cattle
duplication, overlap, and fragmentation—they share similar             secured in his brother’s name. He then had his brother either
purposes and serve some of the same organizations. In the              transfer the proceeds to his bank account or cash the checks
budget request for FY 2014, Rural Development and the                  and give him the proceeds. In December 2012, the producer
Office of Management and Budget proposed a new grant                   was charged with one count of conversion of mortgaged
program that would consolidate these same five                         property, to which he later pled guilty.
programs. However, the proposed program lacked any
analysis of potential cost savings and efficiencies to be              Couple Ordered to Pay $1.4 Million for Submitting Bogus
gained. According to agency officials, due to these duplicate          Claims to FSA
programs, Rural Development staff must be continuously
trained on the specific needs of multiple programs, some of            In January 2014, a South Dakota Federal judge ordered a
which are small and minimally funded. We also found that               couple to pay almost $1.4 million in a civil judgment for
one of the eight entities we reviewed improperly received              submitting phony claims for loan deficiency payments to FSA.
grants for the same purpose, as RBS approved two grant                 The couple presented 132 separate requests for wool loan
applications that were almost identically worded. Another              deficiency payments over a 6-year period when, in fact, they
entity out of the eight did not properly manage the grants it          owned no sheep; as a result, they were paid nearly $340,000
was awarded. We concluded that RBS is at risk for potentially          to which they were not entitled. As a result of our
making improper payments for duplicate activities and                  investigation, the couple pled guilty to the criminal charge of
imprudent use of resources. We recommended that RBS                    conspiracy to defraud FSA and, in 2012, they were sentenced
conduct the necessary research and analyses to determine if            to 60 months’ probation, fined $60,000, and ordered to pay
efficiencies can be gained from the proposal for a new,                restitution of $303,890 to the Commodity Credit Corporation
consolidated grant program. Also, RBS should establish                 (CCC).
procedures at the national office level to require States to
implement controls for preventing duplication. The agency              Former Louisiana Mayor Sentenced for Loan Fraud
generally agreed with our five recommendations. (Audit
Report 34601-0001-31, Rural Development: Rural Business—               In February 2014, a producer who was the former mayor of a
Cooperative Service Grant Programs—Duplication)                        Louisiana town was sentenced in U.S. District Court, Western
                                                                       District of Louisiana, to 12 months and 1 day of incarceration
Illinois Family Pays $5.4 Million to Resolve False Claims              and 36 months of supervised release, and was ordered to pay
Allegations Related to Farm Subsidy Payment Limits                     $322,356 in restitution. The former mayor completed and
                                                                       submitted a request for loan assistance to FSA and
In December 2013, a Sangamon County, Illinois, family                  subsequently received loans totaling $354,300 in March
collectively with several of their corporations and limited            2009. Additionally, he requested a renewal of a FSA
partnerships, signed a settlement agreement with the                   guaranteed line of credit from a local bank in April 2009 and
U.S. Attorney’s Office, Central District of Illinois, and USDA’s       received $909,500. The man fraudulently omitted over
Office of the General Counsel in which they agreed to pay              $350,000 in debt from his loan applications. If the debts had
$5.4 million. The agreement resolved allegations that the              been reported, FSA would not have approved the loans,
family had set up numerous farming partnerships to conceal             which all subsequently went into default. In addition, he
their true ownership interests and obtain more farm subsidy            failed to report approximately 140 acres of property as an
payments than they were eligible to receive. The family                asset, which precluded FSA from taking a secured interest in
made the final payment on the $5.4 million agreement on                the property. This property was ultimately sold by the former
January 28, 2014.                                                      mayor, and the profits of this sale were not applied to the
                                                                       loan debt.
North Dakota Producer Sentenced for Selling Loan Collateral
                                                                       Kansas Man Sells Son’s Mortgaged Cattle
In January 2014, in U.S. District Court, District of North
Dakota, a producer was sentenced to 24 months of                       In December 2013, a Kansas man was sentenced in U.S.
probation, ordered to serve 50 hours of community service,             District Court, District of Kansas, to 21 months’ incarceration
and ordered to pay $85,619 in restitution and a $25 special            and 60 months’ supervised release and ordered to pay
assessment. Our investigation disclosed that the producer              $100,000 in restitution. Our investigation determined that, in
converted cattle pledged as security for an FSA operating loan         May 2008, he falsely represented that his son would qualify
by selling, without FSA’s knowledge, 44 head of cattle that            for and use an FSA operating loan to buy and raise cattle

                                                                   6
while the son attended a local college. From September 2011            Volunteer Fire/Rescue Department President and Fire Chief
through March 2012, the man sold cattle that had been                  Plead Guilty to Theft From an Organization Receiving
pledged as security on his son’s FSA operating loan, on which          Federal Funds
his son defaulted. He pledged those same cattle as security
for a commercial loan.                                                 Due to an OIG investigation, both the chief and the president
                                                                       of a Virginia volunteer fire/rescue department were
Iowa Man Guilty of Crop Insurance Fraud                                sentenced for misusing a $3.7 million RD loan intended to
                                                                       fund the renovation of the organization’s fire station. The
In January 2014, in U.S. District Court, Southern District of          president pled guilty to theft from an organization receiving
Iowa, a producer who filed a fictitious crop insurance claim           Federal funds, funds which he then used to pay his mortgage.
was sentenced to time served, 36 months of supervised                  He was sentenced in November 2013 to serve 24 months on
release, 6 months of home confinement with electronic                  probation and pay $40,132 in restitution and a $100 special
monitoring, and ordered to pay a $6,000 fine. No restitution           assessment. The chief pled guilty to wire fraud and filing
was ordered because crop insurance indemnity payments                  false individual income tax returns. In December 2013, the
were stopped pending investigative findings, so there was no           chief was sentenced to 24 months’ incarceration, 24 months’
loss to the Government. Our investigation determined that,             supervised release, ordered to pay $209,828 in restitution,
beginning in October 2012, the producer illegally sold at least        and charged a $200 special assessment. Other agencies
39,000 bushels of corn to an ethanol refinery using a fictitious       involved in investigating the matter included FBI and Internal
farm name. He concealed this corn from his financial lender            Revenue Service-Criminal Investigation (IRS-CI).
and from his insurance crop loss adjustor, which resulted in a
fraudulent crop insurance claim of approximately $367,220.             Mississippi Man Impersonates an RD Employee and
He pled guilty to one count of false statements in September           Fraudulently Obtains Money From Several Unsuspecting
2013.                                                                  Citizens

Maine Man and His Girlfriend Stole Identities of Minor                 In March 2014, in U.S. District Court, Northern District of
Children to Commit Benefits Fraud                                      Mississippi, a Mississippi man was sentenced to 12 months of
                                                                       probation and ordered to pay $1,000 in restitution. In March
A Maine man and the mother of his child used their children’s          and April 2012, the man falsely identified himself as a RD
social security numbers to obtain employment and then                  employee to several Mississippi Delta residents who were
failed to report the income to the various government                  seeking rental housing. The man required the residents to
agencies from which they were receiving benefits. The man              pay him $500 to process their applications. He also required
received rental assistance from RD as well as SNAP benefits            the residents to provide him with personal information,
from USDA, and Temporary Assistance for Needy Families                 including social security numbers and birth certificates of
(TANF) administered by the Maine Department of Health and              their children. The man accepted a total of $1,500 in cash
Human Services. His girlfriend and the mother of his child             from these individuals and falsely led them to believe the
likewise received SNAP and TANF benefits. The pair were                money was being used as a deposit towards the rental of a
charged during 2012 with Social Security fraud, theft of               RD home.
Federal funds, aggravated identity theft, and making false
statements. As we reported in the Semiannual Report,                   SNAP Trafficking Cases
Second Half of FY 2013, the man pled guilty and was
subsequently sentenced to 48 months’ imprisonment to be                A significant portion of OIG’s investigative resources are
followed by 36 months’ supervised release and was ordered              dedicated to ensuring the integrity of SNAP by combating the
to pay $21,382 restitution. His girlfriend pled guilty and was         practice of exchanging benefits for cash (trafficking). Working
sentenced in December 2013 to 2 weeks’ imprisonment, to                closely with the Food and Nutrition Service (FNS), OIG has
be followed by 3 years’ supervised release, and was ordered            concluded the following SNAP-related investigations and
to pay $19,015 in restitution.                                         prosecutions in the first half of FY 2014:

                                                                          Long Island Store Owner and Employees Guilty of
                                                                           Defrauding SNAP. In September 2013, in U.S. District
                                                                           Court, Eastern District of New York, the owner of a Long
                                                                           Island retail food store was found guilty of conspiracy to
                                                                           commit SNAP fraud, conspiracy to commit wire fraud,

                                                                   7
    and making false statements. He was sentenced in                     a store in Newark. During the course of the
    December 2013 to imprisonment for a period of                        investigation, the owner of the store exchanged
    96 months and ordered to pay $490,247 in restitution.                SNAP benefits for the purchase of ineligible items,
    Two store employees also pled guilty to conspiracy to                including electronics and a variety of household items, at
    commit SNAP fraud and were sentenced to probation.                   the store and three additional related stores. In
    During the course of our joint investigation with FBI, the           May 2013, the owner was arrested and charged in a New
    store employees exchanged SNAP benefits for U.S.                     Jersey court with financial facilitation of criminal activity,
    currency at a discount. Following the execution of a                 theft by deception, and unauthorized use of a
    search warrant at the store, the owner admitted to                   SNAP benefits card in violation of New Jersey statutes. In
    instructing his employees to discount SNAP benefits. In              September 2013, the owner pled guilty to theft by
    addition, our investigation revealed that the owner was              deception and in January 2014 was sentenced to
    previously convicted for SNAP trafficking.                           84 months’ imprisonment and ordered to pay $831,830
                                                                         in restitution.
   Rhode Island Store Owners Guilty of Defrauding Food
    Program. Our joint investigations with IRS-CI, the Rhode            Four Individuals Sentenced for SNAP Trafficking at
    Island State Police, and FNS-Retailer Investigations                 Baltimore Pawn Shop. OIG special agents participated in
    Branch resulted in two Rhode Island store owners                     a joint warrant operation involving FBI, IRS-CI, the
    pleading guilty to charges related to SNAP trafficking and           U.S. Postal Inspection Service, the Baltimore Police
    money laundering. One of the store owners was                        Department, and the Baltimore County Police
    sentenced in December 2013 to imprisonment for                       Department, which revealed that a Baltimore pawn shop
    12 months and 1 day, to be followed by 36 months’                    owner was trafficking SNAP benefits. In October 2013,
    supervised release, including 8 months of home                       the owner entered a guilty plea to a misdemeanor charge
    confinement, and was ordered to pay $399,000 in                      of conspiracy to commit theft in violation of Maryland
    restitution. The other store owner was sentenced in                  law. The pawn shop owner was sentenced to 36 months’
    February 2014 to spend 18 months in prison followed by               supervised release and ordered to pay $1,200 in
    36 months’ supervised release, including 6 months of                 restitution to USDA. Three SNAP recipients also entered
    home confinement, and ordered to pay $398,000 in                     guilty pleas and were sentenced to 24 months’
    restitution.                                                         supervised release in a pre-trial diversion program.

   Philadelphia Grocery Store Owner and Employee Plead                 Southern Ohio Retailer Sentenced for SNAP Fraud. This
    Guilty to SNAP Trafficking. In July 2009, information was            investigation was conducted to determine if the owner
    received that a supermarket in Philadelphia was                      and employees of a market in Fairborn, Ohio, were
    trafficking in SNAP benefits. During the course of the               trafficking SNAP benefits for ineligible items and cash.
    investigation, the owner and an employee of the store                The investigation was conducted jointly with the U.S.
    exchanged SNAP benefits for U.S. currency. In                        Secret Service and the Ohio Department of Public Safety-
    March 2012, in U.S. District Court, Eastern District of              Investigative Unit. On several occasions during the
    Pennsylvania, the employee was charged with five counts              course of this investigation, the store owner and a store
    of SNAP trafficking. The employee pled guilty to these               employee exchanged SNAP benefits for ineligible items,
    charges in November 2012, and in October 2013 was                    including a motor vehicle and cash. In December 2013,
    sentenced to 12 months and 1 day of imprisonment to                  the owner was sentenced in U.S. District Court, Southern
    be followed by 36 months’ supervised release. In                     District of Ohio, to 14 months in prison and 36 months’
    April 2013, the store owner pled guilty to SNAP fraud,               supervised release, and was ordered to pay a
    money laundering, and conspiracy. In January 2014, the               $300 special assessment for buying SNAP benefits for
    owner was sentenced to 16 months’ imprisonment to be                 cash and ineligible items, including a motor vehicle, and
    followed by 36 months’ supervised release. Both were                 for illegally receiving unemployment insurance. The
    ordered to pay $2.3 million in restitution, jointly and              owner was also ordered to pay $133,000 and he forfeited
    severally.                                                           $65,000 that had been seized during the investigation.
                                                                         The employee was sentenced to 60 months’ probation
   New Jersey Store Owner Convicted of SNAP Trafficking.                and was ordered, along with the owner, to pay $200,000
    This investigation was initiated based upon information              in restitution.
    received from the New Jersey State Police and the New
    York City Police Department regarding SNAP trafficking at

                                                                 8
   Southeast Michigan Store Owner Sentenced for                            property. The co-defendant was a “runner” who
    Defrauding Nutrition Programs. A joint investigation                    recruited homeless people in the Kansas City area to give
    with IRS-CI and the Michigan State Police determined                    him their SNAP electronic benefit transfer (EBT) cards
    that, between August 2011 and September 2012, the                       and personal identification numbers in exchange for
    owner of a Dearborn, Michigan, retail establishment                     cash. The runner provided the EBT cards to the store
    defrauded SNAP and the Special Supplemental Nutrition                   owner and his wife.
    Program for Women, Infants, and Children (WIC) of more
    than $1 million. In February 2013, the store owner                     California Husband and Wife Sent to Prison and
    confronted and threatened to kill an individual who                     Ordered to Pay Over $6.5 Million in Restitution for
    assisted in the investigation. In March 2013, the owner                 SNAP Fraud at Six Stores. In October 2013, a husband
    was indicted in U.S. District Court, Eastern District of                and wife—owners of six retail stores where SNAP
    Michigan, on charges of wire fraud and witness                          trafficking took place—were sentenced in U.S. District
    tampering, and in August 2013 pled guilty to wire fraud.                Court, Central District of California, to serve 40 and
    In November 2013, the owner was sentenced to                            18 months in prison, respectively; pay over $6.5 million
    36 months’ incarceration, 36 months’ supervised release,                in restitution jointly; and serve 36 months of supervised
    and $1.2 million in restitution. In addition, $89,700 in                release once their prison time is complete. The owners
    fraud proceeds seized during a search warrant were                      were also ordered to forfeit over $300,000 in cash,
    subjected to forfeiture by the U.S. Attorney’s Office, Civil            six pieces of real property, and a vehicle. In June 2013,
    Division.                                                               each of the store owners pled guilty to one count of food
                                                                            stamp trafficking and one count of conspiracy.
   Operation Crackdown in Duluth, Minnesota, Results in
    the Arrest of 37 Individuals. A 3-month joint                          California Convenience Store Owner Sentenced to
    investigation with the Bureau of Alcohol, Tobacco,                      42 Months in Prison and Ordered to Pay $3.5 Million in
    Firearms and Explosives, the Duluth Police Department,                  Restitution. In November 2013, the owner of a
    the Lake Superior Drug and Violent Crimes Task Force,                   convenience store/gas station was sentenced in U.S.
    and the North Star Fugitive Task Force targeted                         District Court, Central District of California, to serve
    SNAP trafficking, narcotics trafficking, firearms violations,           42 months in prison, pay $3.5 million in restitution and a
    and prostitution in the Duluth area. In February 2013,                  $100 assessment fine, and serve 36 months of supervised
    search warrants were served resulting in the arrests of                 release once his prison time is completed. In June 2013,
    37 individuals. Of the arrestees, eight individuals have                the store owner pled guilty to food stamp trafficking and
    been charged with welfare fraud related to SNAP                         aiding and abetting.
    trafficking, with two individuals subsequently being
    sentenced to incarceration periods of 27 and 88 months,             Massachusetts Sex Offender and Identity Thief Sentenced to
    respectively. The remaining six arrestees were charged              Prison, Deportation
    with drug-related offenses and welfare fraud: two have
    active warrants issued for their arrest; one has been               The Social Security Administration (SSA) OIG provided
    sentenced to 2 years of probation; two others have been             information regarding a convicted sex offender who admitted
    sentenced to incarceration periods of 57 and                        in State court to using the identity of another individual. Our
    108 months, respectively; and one was scheduled for                 joint investigation with SSA-OIG revealed that the man used
    trial in March 2014.                                                the false identity to fraudulently obtain $13,110 in SNAP
                                                                        benefits, as well as Supplemental Security Income from SSA,
   Kansas City Store Owner and Wife Sentenced for SNAP                 and Emergency Aid to Elders, Disabled and Children from the
    Fraud. In December 2013, in U.S. District Court, Western            State of Massachusetts. He was charged with theft of public
    District of Missouri, a Kansas City store owner was                 money, use of a falsely obtained social security number to
    sentenced to 15 months’ incarceration, followed by                  obtain benefits, and aggravated identity theft. He
    36 months’ supervised release, and his wife was                     subsequently pled guilty in U.S. District Court, District of
    sentenced to 60 months’ supervised release. A co-                   Massachusetts, and was sentenced in December 2013 to
    defendant was previously sentenced to time served                   imprisonment for 42 months, to be followed by deportation,
    (16 months) and 36 months’ supervised release. The                  and was ordered to pay $7,426 in restitution.
    husband, wife, and co-defendant were all ordered to pay
    $151,000 in restitution jointly and severally. The owner
    and his wife were also ordered to forfeit three pieces of

                                                                    9
                                                                           interest by using CACFP funds to pay for supplies from a
Two Portland Individuals Fraudulently Applied for Federal                  company operated by her husband; misappropriated CACFP
Benefits and Deepwater Horizon Oil Spill Funds                             funds to pay for personal expenses, including the purchase of
                                                                           real estate and administrative support for other corporations
In October 2013, two Portland, Oregon, individuals were                    they owned and operated; and instructed teachers to inflate
sentenced in U.S. District Court, District of Oregon.                      the number of children/meals on CACFP claims for
One individual was sentenced to 24 months of probation and                 reimbursement and to submit fraudulent eligibility
ordered to pay $22,377 in restitution. The other individual                paperwork, thereby inflating the number of children that
was sentenced to 60 months of probation and 4 months of                    were eligible for free and reduced cost meals. In November
home confinement, and ordered to pay $21,000 in                            2010, seven search warrants were executed at child care
restitution. The joint investigation with the U.S. Postal                  facilities operated by the organization in Manhattan,
Inspection Service, U.S. Secret Service, and Health and                    Brooklyn, and Queens. In September 2011, a criminal
Human Services OIG found that these two individuals                        complaint was filed charging the executive director and her
fraudulently applied for SNAP benefits, housing benefits, and              husband with theft or bribery concerning programs receiving
TANF benefits. The couple, who were originally from                        Federal funds. Both subsequently pled guilty and were
Louisiana, also fraudulently applied for Deepwater Horizon                 ordered in October 2013 to pay restitution in the amount of
Oil Spill funds related to fraudulent claims of lost work. In              $2.2 million and to forfeit $3 million. The executive director
March 2013, the woman was charged with one count of false                  was sentenced to 57 months’ imprisonment to be followed
statements to government agencies and the man was                          by 36 months’ supervised release, ordered to perform 300
charged with one count of mail fraud. Both pled guilty in                  hours of community service, and pay a fine of $100,000. Her
June 2013.                                                                 husband was sentenced to 36 months’ probation, to include
                                                                           12 months’ home confinement with electronic monitoring,
Brother and Sister Involved in Sex Trafficking Conspiracy                  and was ordered to perform 300 hours of community service,
                                                                           and pay a fine of $7,500. The New York State Department of
In July 2013, in U.S. District Court, Eastern District of Missouri,        Health has proposed the couple’s removal from participation
a Missouri man was sentenced to serve 120 months of                        in CACFP.
incarceration and ordered to be under supervised release for
life. His Federal sentence will run consecutively with his State           Former Georgia Teacher Sentenced to 14 Years in an
term of imprisonment for failure to register as a sex offender             $8 Million Fraud and Money Laundering Conspiracy
after a prior crime; once released on that charge, he will be
transferred to Federal custody to serve his Federal term. In               As we first reported in the Semiannual Report to Congress,
February 2014, in U.S. District Court, Eastern District of                 Second Half of FY 2012, our investigation determined that an
Missouri, his sister was sentenced to 120 months in prison                 organized group of individuals opened 13 storefront
and ordered to be under supervised release for the                         operations in Georgia to defraud SNAP and WIC. In June
remainder of her life. From approximately January 2010 to                  2013, a store owner and two employees were found guilty at
December 2011, the siblings recruited and maintained                       trial of conspiracy to commit wire fraud and conspiracy to
women, physically assaulted them, and forced them to                       commit money laundering. Evidence presented at trial
engage in prostitution in Missouri and Illinois for the siblings’          showed that this criminal organization purchased over
own financial benefit. The siblings also confiscated the                   $8 million in SNAP benefits and WIC vouchers between
women’s EBT cards as a method of control and discipline and                February 2009 and June 2011. In November 2013, the store
used the women’s SNAP benefits to buy food for themselves.                 owner was sentenced to 168 months in prison and was
                                                                           ordered to pay $8.3 million in restitution. Also in November
Couple Defrauds Child Care Feeding Program                                 2013, the store manager was sentenced to 145 months in
                                                                           prison and the store employee was sentenced to 70 months
In 2009, OIG reviewed FNS’ Child and Adult Care Food                       in prison. To date, this investigation has resulted in
Program (CACFP), which revealed that a large non-profit child              16 individuals being sentenced to prison terms. This case was
care organization in New York, New York, inflated                          worked jointly with the Savannah-Chatham Metropolitan
CACFP claims and misappropriated CACFP funds. The                          Police Department, IRS-CI, and the U.S. Secret Service.
subsequent criminal investigation, conducted jointly with
IRS-CI, the Nassau County Police Department, and the New
York State Department of Health, revealed that the
organization’s executive director engaged in a conflict of

                                                                      10
Georgia Store Owner Sentenced to Prison for WIC Fraud

An investigation, which was conducted jointly with the
U.S. Secret Service, disclosed that the owner of a small store
in Georgia purchased WIC vouchers for cash. Additionally,
the store owner sold fraudulent social security cards and
Georgia driver’s licenses. Between October 2010 and January
2012, approximately $170,000 in WIC vouchers were
deposited into the store owner’s bank accounts. A review of
the financial records disclosed that the owner purchased only
$31,000 worth of eligible inventory during that same time
period. The owner was charged in U.S. District Court,
Northern District of Georgia, with WIC fraud, theft of public
funds, and identification documents fraud. The owner pled
guilty and was sentenced in October 2013 to 18 months in
prison and 36 months of probation, including 5 months of
home confinement. She was also ordered to pay $195,275 in
restitution to the Georgia Department of Public Health.




RECOVERY ACT                                                            $65.1 million. Further, FAS granted broad approval for
                                                                        certain commodity producers to participate in the program;
USDA Agencies Should Strengthen Controls Over Trade                     however, two of these approvals did not meet eligibility
Adjustment Assistance for Farmers                                       criteria. We found that 13 of 37 producers we reviewed did
                                                                        not individually show how they were affected by imports, and
Authorized under the American Recovery and Reinvestment                 received approximately $64,600. FAS also did not effectively
Act of 2009, the Trade Adjustment Assistance for Farmers                monitor or review FSA’s administration of the program, which
(TAAF) Program is designed to offer technical and financial             allowed 85 producers to receive approximately $284,000 in
assistance to farmers and fishermen affected by import                  benefits to which they were not entitled. Finally, we found
competition. It is administered by three agencies: the                  that NIFA did not ensure that the TAAF program database
Foreign Agricultural Service (FAS), the lead oversight agency;          was compliant with Federal information system security
the Farm Service Agency (FSA); and the National Institute of            requirements. FAS, FSA, and NIFA generally agreed with our
Food and Agriculture (NIFA). While we found that FAS                    recommendations. (Audit Report 50703-0001-23, American
reported information on Recovery.gov as required, the three             Recovery and Reinvestment Act—Trade Adjustment
agencies did not have the appropriate controls in place to              Assistance for Farmers Program)
ensure that TAAF participants were eligible, payments were
accurate, or oversight was sufficient. Specifically, FAS did not        As of March 31, 2014, OIG has completed 79 Recovery Act
return unobligated and unneeded FY 2009 program funds to                projects. Two projects remain outstanding.
the Treasury, which amounted to approximately




                                                                   11
GOVERNMENTWIDE ACTIVITIES—GOAL 2                                           APHIS Notice—Petition to Amend Animal Welfare Act
                                                                          Regulations to Prohibit Public Contact with Big Cats, Bears, and
Review of Legislation, Regulations, Directives, and                       Nonhuman Primates. OIG reviewed and provided comments
Memoranda                                                                 on an APHIS notice of a petition to amend the Animal Welfare
                                                                          Act regulations. In the notice, APHIS asked for input regarding
 Notice and Request for Information—Enhancing Retail Food                whether licensees should be explicitly prohibited from
Store Eligibility in SNAP. OIG reviewed and provided                      allowing persons to come into direct physical contact with any
comments on FNS’ notice and request for information                       big cats, bears, and nonhuman primates; and whether
regarding its proposal to enhance retail food store eligibility in        exhibitors and dealers should be required to keep additional
SNAP. The notice requested responses to 14 questions on how               documentation regarding these animals. OIG suggested that
best to enhance retailer definitions and requirements in order            APHIS consider broadening any prohibition barring direct
to improve access to healthy food choices for SNAP                        contact to cover additional animals such as exotic canines.
participants and program integrity, as well as how to ensure              Additionally, OIG recommended clarifying regulations and
that only retailers that effectuate the purpose of SNAP are               guidance related to the definition of “sufficient distance” and
authorized to participate in the program. OIG noted that,                 barriers in order to better assure the safety of animals and the
although access to healthy food choices can be a reasonable               viewing public. Finally, OIG recommended that APHIS require
priority for establishing SNAP store eligibility criteria, other          licensed animal exhibitors to keep documentation of
priorities are equally important. For example, program                    exhibition activities and escapes and attacks involving
integrity is a reasonable priority for establishing SNAP store            dangerous animals.
eligibility criteria to best limit waste, fraud, and abuse in the
program and best ensure that the program funds are used as                Participation on Committees, Working Groups, and Task
intended. We noted that recent audit work has demonstrated                Forces
that FNS needs to improve the agency’s controls for
authorizing, reauthorizing, and disqualifying retailers that               Interagency Fraud and Risk Data Mining Group. The OIG
participate in SNAP. OIG also noted that all available resources          Data Analysis and Special Projects Division participates in this
should be utilized to carry out key oversight and enforcement             working group to learn from experts in the fields of data
activities to address SNAP retailer fraud and to prevent                  mining and risk analysis. The group brings together
multiple instances of fraud.                                              investigators and auditors within the Federal community to
                                                                          share fraud detection and prevention best practices, modeling
 Rural Housing Service (RHS)—Interim Final Rule—Single                   tools and techniques, and emerging issues that can be
Family Housing Guaranteed Loan Program. OIG reviewed RHS’                 integrated with existing data mining practices, tools, and
interim final rule, which provided an exception authority for             techniques.
the agency when a determination is made that application of
the requirement would adversely affect the Government’s                    Operation Talon. OIG began Operation Talon in 1997 to
interest. OIG recommended that the provision be amended to                catch fugitives, many of them violent offenders, who are
reflect the requirement that exception authority reasons be               current or former SNAP recipients. Since its inception,
documented. The rule also identified eligible costs for the use           Operation Talon has led to the arrests of thousands of fugitive
of loan funds associated with the acquisition of a dwelling.              felons. During the first half of FY 2014, Talon operations were
OIG recommended that eligible costs include the cost to                   conducted in 4 States, resulting in more than 200 arrests. OIG
design and construct access to broadband services within the              combined forces with Federal, State, and local law
approved home. Further, the rule provided for a mortgage                  enforcement agencies to arrest fugitives for such offenses as
recovery advance where the “agency will also allow lenders to             arson, assault, blackmail, drug charges, offenses against family
advance funds on behalf of borrowers in amounts necessary to              and children, robbery, sex offenses, and weapons violations.
bring defaulted loans current, up to 30 percent of the unpaid
principle balance of the loans. Upon request, the agency will              Bridge Card Enforcement Team. OIG investigators work with
reimburse the lender for eligible advances.” OIG                          this team to investigate criminal SNAP and WIC violations.
recommended that only when a valid loss claim has been                    Team members include the Michigan State Police and IRS-CI
submitted to the agency by the lender should the Government               investigators. During this reporting period, we have also
determine whether it should reimburse the lender for these                worked with the Lansing Police Department’s Special
costs in accordance with the Government’s guaranty                        Operations Division and Homeland Security Investigations.
percentage.                                                               Since 2007, our teamwork has resulted in 152 arrests and
                                                                          241 search warrants served. The U.S. Attorney’s Offices for

                                                                     12
the Eastern and Western Districts of Michigan and the                     financial markets, and recover proceeds for victims of financial
Michigan Attorney General’s Office are pursuing multiple                  crimes. The task forces are headed by representatives from
criminal prosecutions, with cases so far resulting in 139 guilty          U.S. Attorney’s Offices and FBI. They are strategically placed in
pleas. Sentences have included lengthy incarceration periods              locations identified as high-threat areas for mortgage fraud.
and $26 million in court-ordered fines and restitution. The               They include participants from Federal program agencies and
U.S. Attorney’s Offices have initiated forfeitures totaling over          regulatory agencies including Housing and Urban
$4.5 million.                                                             Development, IRS, SSA, local district attorney’s offices, and
                                                                          police departments.
 Cook County State’s Attorney’s Office Regional Crime Task
Force. OIG investigators work with this team to investigate                Organized Retail Theft Task Forces. As a member of the
criminal SNAP and WIC violations. Team members include the                Retail Merchants Association of North Carolina Retail Theft
Illinois State’s Attorney’s Office, Illinois State Police, Chicago        Initiative, OIG agents coordinate, plan, and meet regularly with
Police Department, U.S. Secret Service, U.S. Immigration and              various retail merchants in North Carolina to discuss a
Customs Enforcement Homeland Security Investigations, and                 proactive investigative strategy to develop cases involving
numerous other State and local law enforcement agencies that              retail theft. This working group coordinates investigations of
serve the citizens of Cook County, Illinois. In August 2013, the          convenience stores and retail outlets that may be involved in
task force opened its 5,000-square-foot state-of-the-art                  the theft and resale of infant formula, electronics, and other
regional operations center that is the Midwest hub for the                retail items. As members of the Bay Area Organized Retail
battle against organized crime. This first-of-its-kind                    Crime Association in California, OIG agents work with other
public/private partnership could be a model for future                    area law enforcement agencies and organized retail crime
initiatives. The Cook County State’s Attorney’s Office is                 investigators from major retailers to identify and coordinate
pursuing multiple criminal prosecutions, with cases so far                action against organized retail theft rings, as well as to identify
resulting in three guilty pleas for organized financial crime             retail items susceptible to theft by such organized groups.
related to SNAP.
                                                                           The Guardians. USDA OIG is a member of this task force in
 Suspicious Activity Reports Review Teams. OIG agents in a               Montana consisting of other OIGs and FBI. The task force was
number of States participate on suspicious activity review                convened by the U.S. Attorney’s Office to coordinate and
teams, which are coordinated by the U.S. Department of                    synchronize law enforcement efforts among various
Justice through the U.S. Attorney’s Offices. These review                 Departments that have a significant financial commitment in
teams systematically review all reports of suspicious activity            Native American communities in Montana. The participating
that affect a specific geographic jurisdiction, identify                  agencies join forces; share assets and responsibilities; promote
individuals who may be engaged in criminal activities, and                citizen disclosure of public corruption, fraud, and
coordinate and disseminate leads to appropriate agencies for              embezzlement in Federal programs, contracts, and grants; and
followup. These teams generally include representatives from              investigate and prosecute crimes against Montana’s Native
law enforcement and various regulatory agencies, with the                 American communities.
U.S. Attorney’s Office and IRS-CI typically in lead roles. OIG
focuses specifically on reports of suspected criminal activities           Western Regional Inspectors General Councils and
by business entities and individuals involved in USDA                     Intelligence Working Groups. OIG investigators work with
programs, including SNAP and WIC violations, stolen infant                various councils and groups to share information, discuss
formula, and farm-related cases. Coordination among the                   ongoing and potential work of mutual interest, and strengthen
respective agencies results in improved communication and                 working relationships. In addition, Western Region OIG
more efficient resource allocation.                                       investigators organize and participate in meetings to enhance
                                                                          coordination among Federal, State, and local law enforcement
 Mortgage Fraud Task Forces. OIG investigators participate in            agencies throughout the region. Inspector General (IG)
mortgage fraud task forces in California, Minnesota, and North            councils meeting in other regions of the country also include
Carolina, in addition to a national mortgage fraud working                USDA OIG representatives.
group that meets monthly in Washington, D.C. These task
forces identify trends, share information, and coordinate                  Small Business Innovative Research Working Group. OIG
investigations related to mortgage fraud. They are working to             investigators and auditors participate in a working group
improve efforts across the Federal executive branch, and with             hosted by the National Science Foundation OIG. The working
State and local partners, investigate and prosecute significant           group is focused on addressing Congress’ concerns about the
mortgage crimes, combat discrimination in the lending and                 persistence of fraud in this research program, as well as the

                                                                     13
IGs’ annual reporting requirements on their work in this
program area.

 Environmental Crimes Working Groups. OIG agents continue
to participate in working groups convened by U.S. Attorney’s
Offices in the District of New Hampshire, the Eastern District of
North Carolina, and the Western District of Washington State,
to improve cooperation and coordination among Federal,
State, and local law enforcement agencies enforcing
environmental laws, as well as to exchange information and
provide prosecutorial support and training opportunities.

 Minnesota Pest Risk Committee. OIG participates in this
committee, which is composed of Federal, State, and local
representatives who focus on efforts used in Minnesota to
intercept and control invasive plants, insects, and animals that
are detrimental to the State.

 OIG agents participated in other task forces and working
groups related to benefits fraud, including the Northern
California Financial Fraud Investigators Association; a
bankruptcy fraud working group and white-collar crime
working group in Kansas and Missouri; the Identity Theft
Working Group in New Hampshire; social services/welfare
fraud working groups in Oregon and Washington State; the
Colorado Welfare Fraud Council; and SNAP fraud joint
investigative groups in Arizona, California, and Mississippi,
including a U.S. Secret Service High Tech Crimes Task Force.

 Ohio Organized Crime Investigations Commission Task Force.
An OIG investigator is participating on the Ohio Organized
Crime Investigations Commission Task Force in Dayton. The
task force provides assistance to local law enforcement
agencies in the investigation of organized criminal activity.
OIG investigators have participated on the task force since
1996 and have conducted investigations involving welfare
recipients, food stamp trafficking, mortgaged farm equipment
stolen from farmers, stolen property trafficking, illegal drugs,
and dog fighting.




                                                                    14
ONGOING REVIEWS FOR GOAL 2


   economic adjustment assistance to users of upland
    cotton (FSA),
   review of Water and Waste Disposal Loan and Grant
    Program hotline complaint (RUS),
   States’ food costs for WIC (FNS),
   Noninsured Crop Disaster Assistance Program (FSA),
   Federal Crop Insurance Program—enterprise units
    (Risk Management Agency (RMA)),
   beginning farmers and ranchers programs (FSA, RMA,
    Natural Resources Conservation Service (NRCS), Office
    of Advocacy and Outreach (OAO), NIFA, and RBS),
   SNAP error rate (FNS),
   National School Lunch and School Breakfast Programs
    (FNS),
   Single Family Housing direct loan servicing and
    payment assistance recapture (RD),
   compliance activities (FSA),
   Environmental Quality Incentives Program (NRCS),
   Microloan Program (FSA),
   eligibility and compliance consideration for Section
    2501 Grants Awarded FYs 2010-2011 (OAO),
   Single Family Housing direct loan servicing and
    payment (RD), and
   Lessons Learned—American Recovery and
    Reinvestment Act of 2009, Roll-Up of OIG Work
    Performed in USDA Agencies and Program Areas.




                                                            15
Management Improvement Initiatives
OIG Strategic Goal 3:
Provide USDA with oversight to help it achieve its results-oriented performance
                                                                                         Management Challenges Addressed
OIG conducts audits and investigations that focus on such areas as improved
                                                                                         Under Goal 3
financial management and accountability, information technology (IT) security and         USDA Needs to Create Strong,
                                                                                            Integrated Internal Control
management, research, real property management, employee integrity, and the
                                                                                            Systems Across Programs
Government Performance and Results Act. The effectiveness and efficiency with               (Challenge 2)
                                                                                          Information Technology
which USDA manages its assets are critical. USDA depends on IT to efficiently and
                                                                                            Security Needs Continuing
effectively deliver its programs and provide meaningful and reliable financial              Improvement (Challenge 3)
                                                                                          Departmental Outreach Efforts
reporting. One of the more significant dangers USDA faces is a cyber attack on its
                                                                                            Need to be More Transparent
IT infrastructure, whether by terrorists seeking to destroy unique databases or             (Challenge 4)
criminals seeking economic gain.

In the first half of FY 2014, we devoted 45.2 percent of our total direct resources to Goal 3, with 99.2 percent of these
resources assigned to critical/high-impact work. A total of 100 percent of our audit recommendations under Goal 3 resulted
in management decision within 1 year, and 72 percent of our investigative cases resulted in criminal, civil, or administrative
action. OIG issued 14 audit reports under Goal 3 during this reporting period. OIG’s investigations under Goal 3 yielded
4 indictments, 5 convictions, and approximately $500,000 in monetary results during this reporting period.




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                                 control weaknesses. FAS does not have effective
FOR GOAL 3                                                               controls in place to monitor and close out agreements.
                                                                         Also, FAS’ controls did not ensure that: (1) private
                                                                         voluntary organizations (PVO) reported financial
FAS Needs to Strengthen Controls Over the Food for                       information completely and accurately in their
Progress Program                                                         semiannual reports; (2) PVOs established separate bank
                                                                         accounts to administer agreements; and (3) interest
FAS’ Food for Progress Program, which totals approximately               earnings were remitted on advanced CCC administrative
$734.5 million, seeks to improve agricultural productivity and           funds. These problems occurred because FAS lacks
expand agricultural trade. OIG’s prior reviews of FAS’ food              strong management controls over the program. We
aid programs disclosed internal control weaknesses with its              found that FAS had not fully overseen these program
monitoring and closing of food aid agreements. As a result of            agreements, nor had it implemented performance
our previous audits, FAS has implemented corrective actions,             indicators or measures to assess its accomplishments.
such as developing and implementing a Food Aid Information               These weaknesses resulted in questioned and
System for administering food aid program agreements,                    unsupported costs totaling $685,646, and funds to be put
providing staff training, issuing new regulations, and hiring            to better use totaling $8,481. Without strengthening its
consultants to assess its management controls over its food              oversight of Food for Progress Program agreements,
aid programs.                                                            FAS cannot ensure Federal resources are used efficiently
                                                                         and effectively. FAS generally agreed with our
However, our current audit of FAS’ Food for Progress                     recommendations. (Audit Report 07601-0001-22, Private
Program identified similar, significant program management               Voluntary Organization Grant Fund Accountability)

                                                                 16
                                                                        In addition to auditing USDA’s consolidated financial
AMS Should Improve Its Oversight of the Cattlemen’s Beef                statements, OIG either performed or oversaw
Promotion and Research Board (Beef Board)                               contractors as they performed audits of six USDA
                                                                        agencies’ financial statements, as well as USDA’s special
Based on our review of relevant provisions of the Beef                  purpose financial statements:
Research and Information Act and the Beef Promotion and
Research Order, and our review of the contractual association            RD—Unmodified Opinion on FY 2013/2012 Financial
between the beef board and the National Cattlemen’s Beef                Statements. RD received an unmodified opinion on its
Association, as well as other industry-related organizations,           financial statements for FYs 2013 and 2012. Our
we found no cause to question the current relationship                  consideration of internal controls over financial reporting
between the parties. However, our review of the Agricultural            identified no material weaknesses. However, our
Marketing Service’s (AMS) and the Beef Board’s procedures               consideration of compliance with laws and regulations
for monitoring activities related to the beef checkoff program          noted an instance of noncompliance with the Improper
concluded that AMS oversight as an internal control function            Payments Elimination and Recovery Act of 2010. (Audit
needs improvement. In our view, agency officials had                    Report 85401-0003-11, Rural Development’s Financial
reduced assurance that beef checkoff funds were collected,              Statements for Fiscal Years 2013 and 2012)
distributed, and expended in accordance with the Act, as well
as with the Order. AMS had not conducted periodic                        Forest Service (FS)—Unmodified Opinion on
management reviews of the Beef Board, and the agency’s                  FY 2013/2012 Financial Statements. FS received an
procedures for conducting these reviews could be improved.              unmodified opinion on its financial statements for
AMS needs to develop and implement oversight procedures                 FYs 2013 and 2012. An independent certified public
specific to the Beef Board and perform management reviews               accounting firm conducted the FY 2013 audit and
of the beef checkoff program. OIG also recommended that                 identified significant deficiencies in internal controls over
the Beef Board require detailed estimates of project                    IT; property, plants, and equipment; validity and
implementation costs. AMS agreed with our                               accuracy of unliquidated obligations; timely recording of
recommendations. (Audit Report 01099-0001-21, AMS:                      cash activity; and payroll accrual. (Audit Report
Oversight of the Beef Promotion and Research Board’s                    08401-0003-11, Forest Service’s Financial Statements for
Activities) (This is a reissuance of our audit report originally        Fiscal Years 2013 and 2012)
dated March 29, 2013. In response to a complaint we
received on the quality of our report, we removed the                    CCC—Unmodified Opinion on FY 2013/2012 Financial
original report from our website. We re-engaged with the                Statements. An independent certified public accounting
agency and conducted additional audit and quality control               firm audited CCC’s financial statements for FYs 2013 and
procedures; our subsequent report reaffirmed the finding                2012 and issued an unmodified opinion. The report
and recommendations. OIG published its revised report                   identified two significant deficiencies: CCC’s funds
January 2014.)                                                          control and controls over child agency financial
                                                                        reporting. The auditors considered the first significant
                                                                        deficiency to be a material weakness. CCC generally
USDA FY 2013/2012 Consolidated Financial Statements                     acknowledged the significant deficiencies and is
                                                                        implementing corrective action. (Audit 06401-0003-11,
USDA’s FY 2013/2012 consolidated financial statements fairly            Commodity Credit Corporation’s Financial Statements for
presented, in all material respects, USDA’s financial position.         Fiscal Years 2013 and 2012)
Our review of USDA’s internal controls over financial
reporting identified four significant deficiencies, two of which         NRCS—Disclaimer of Opinion on FY 2013 Financial
are material weaknesses. Additionally, our report included a            Statements. An independent certified public accounting
finding related to USDA’s lack of substantial compliance with           firm audited NRCS’ financial statements for FY 2013 and
the Federal Financial Management Improvement Act of 1996                issued the agency a disclaimer of opinion. The auditors’
(FFMIA), and a finding related to a violation of the Anti-              report identified weaknesses in NRCS’ accounting and
Deficiency Act. The Department concurred with our findings              controls over undelivered orders, financial reporting,
and generally agrees with our recommendations. (Audit                   expenses, revenue and accounts receivable, and
Report 50401-0005-11, USDA’s Consolidated Financial                     property, plants, and equipment. The auditing firm
Statements for Fiscal Years 2013 and 2012)                              considered the first four deficiencies to be material
                                                                        weaknesses, and the last one to be a significant

                                                                   17
deficiency. Additionally, the auditors tested for compliance            finalized decisions regarding claims. Overall, nothing
with laws and regulations and disclosed instances of                    came to our attention to indicate that the claims process
noncompliance with FFMIA. (Audit Report 10401-0003-11,                  was not implemented in accordance with the BFDL
Natural Resources Conservation Service’s Financial                      settlement agreement.
Statements for FY 2013)
                                                                        We did, however, identify three findings. First, the
 Federal Crop Insurance Corporation (FCIC)/RMA—                        Neutral’s adjudicators reached different conclusions for
Unmodified Opinion on FY 2013/2012 Financial Statements.                claims that essentially contained the same information.
An independent certified public accounting firm audited                 For claims that were similar, they approved some and
FCIC/RMA’s consolidated financial statements for FYs 2013               denied others. We identified 8 such claims in our
and 2012 and issued an unqualified opinion. The audit                   random sample of 100 claims. Second, the Claims
identified one significant deficiency for estimated losses on           Administrator had not identified all instances where
insurance claims calculation. The accounting firm considered            multiple claims may have been filed for a single farming
this to be a material weakness. FCIC/RMA is implementing                operation or an individual class member. We identified
corrective action. (Audit Report 05401-0003-11, Federal Crop            seven such claims in our random sample. Third, the
Insurance Corporation/Risk Management Agency’s Financial                Neutral had provisionally approved at least 20 persons
Statements for Fiscal Years 2013 and 2012)                              who were ineligible for a BFDL award because they had
                                                                        already participated in the Pigford settlement. The
 FNS—Unmodified Opinion on FY 2013/2012 Financial                      Claims Administrator and the Neutral addressed our
Statements. OIG audited FNS’ financial statements for                   findings and detailed actions they planned to take prior
FYs 2013 and 2012 and issued an unmodified opinion.                     to the final adjudication of claims. We concluded that
Although our consideration of compliance with laws and                  their stated actions should mitigate our audit findings,
regulations disclosed one instance of noncompliance with the            and therefore issued no recommendations. We plan to
Improper Payments Elimination and Recovery Act of 2010, we              test the effectiveness of the actions in a subsequent
reported no significant deficiencies or weaknesses. (Audit              audit. (Audit Report 50601-0001-21, In re Black Farmers
Report 27401-0003-21, Food and Nutrition Service’s Financial            Discrimination Litigation)
Statements for Fiscal Years 2013 and 2012)
                                                                        USDA Needs to Resolve Longstanding Material
 USDA—Unmodified Opinion on FY 2013/2012 Special                       Weaknesses in its IT Security
Purpose Financial Statements. USDA’s special purpose
financial statements received an unmodified opinion, and OIG            Although USDA continues to improve the security
found no material weaknesses. (Audit Report                             posture of its IT infrastructure and associated data, OIG
50401-0006-11, Department of Agriculture’s Closing Package              has found that many longstanding weaknesses remain.
Financial Statements for Fiscal Years 2013 and 2012)                    In FYs 2009 through 2012, OIG made
                                                                        49 recommendations for improving the overall security
Claims Process Implemented in Accordance With In re Black               of USDA’s systems, but only 19 of these have been
Farmers Discrimination Litigation Settlement Agreement                  closed. Again this year, we continued to report a
                                                                        material weakness in USDA’s IT security. The
In 1997, a group of black farmers brought a class action                Department has not: (1) established a program for
lawsuit against USDA for alleged discriminatory actions when            continuous monitoring or risk management;
they applied for farm credit or benefits. The case, Pigford, et.        (2) monitored agencies for compliance with baseline
al v. Glickman (known as Pigford), was settled by the parties           configurations and ensured known vulnerabilities were
in 1999. The 2008 Farm Bill afforded judicial recourse for              fixed; (3) deleted separated employees’ access to
late filers in the original Pigford settlement who had not              computer systems; (4) developed and implemented a
previously obtained a determination on the merits of a                  policy to detect and remove unauthorized network
Pigford claim. The 2008 Farm Bill also provided that the                connections; or (5) finalized and issued policy for
Secretary of Agriculture was to make $100 million available             information security oversight of systems that
for payments and debt relief to satisfy the claims under this           contractors or other entities operate on USDA’s behalf.
second case, known as In re Black Farmers Discrimination                The Department should continue its progress by issuing
Litigation (BFDL). The Claims Resolution Act of 2010 provided           critical policy and addressing outstanding
another $1.15 billion for BFDL claims. OIG conducted a                  recommendations, as well as the six new
performance audit of the claims process for the BFDL                    recommendations in this year’s report. We reached
settlement before the deciding official (known as the Neutral)
                                                                   18
management decision on four recommendations, and the                  electronic devices are banned, OIG staff was able to bring
Office of the Chief Information Officer (OCIO) is working             a cell phone into lockup and witnessed a reporter using
closely with OIG to resolve the remaining two. (Audit Report          an iPad during lockup. NASS had also not taken
50501-0004-12, U.S. Department of Agriculture, Office of the          mitigating actions to address outstanding
Chief Information Officer, Fiscal Year 2013 Federal                   IT vulnerabilities, thereby placing NASS’ systems at risk.
Information Security Management Act)                                  As a result, sensitive information could be compromised
                                                                      or leaked before its official release, which could
FAS Needs to Establish a Comprehensive Management                     adversely affect equitable trading in commodity markets.
Control Environment for Section 632(a) Funds                          Faced with three early releases, NASS requested the
                                                                      Office of the Chief Information Officer/Agriculture
In June 2010, the U.S. Agency for International Development           Security Operations Center to perform a technology-
(USAID) transferred $86.3 million to USDA for capacity-               related review of the press release process.
building activities in Afghanistan. OIG found that senior
managers at FAS were aware of general control weaknesses              We noted that NASS has not established a formal process
before first receiving the funding and hired a consulting firm        for effectively monitoring lockup, nor a systematic
to review FAS processes for managing Section 632(a) funds             process for documenting and following up on
from USAID. Although the firm identified several deficiencies,        recommendations. Managers also did not review lockup
FAS did not adequately implement corrective actions to                procedures for gaps, did not adequately oversee
strengthen its control environment before accepting the               contracted guards and equipment inventories, and were
funds. Specifically, we found that FAS had not implemented            unaware of or did not have resources to meet Federal
performance monitoring plans for all projects until over              security requirements. NASS stated that it has taken
2 years after the first project began, which meant that               action to address the majority of the issues found, and
FAS did not have adequate methods to monitor recipients’              management decision has been reached for 14 of the
accomplishment of program goals and objectives. Also,                 17 recommendations. (Audit Report 26501-0001-12,
FAS did not finalize or implement a grant management                  Security Review of NASS’ Lockup Procedures)
structure that would facilitate effective monitoring of
recipients’ fund use.                                                 Former NRCS Employee Embezzles Government Funds

FAS managers and senior officials did not clearly understand          In December 2013, in U.S. District Court, Western District
who was responsible for correcting control deficiencies and           of Louisiana, a former NRCS employee was sentenced to
implementing recommendations. Additionally, FAS did not               40 months’ incarceration and 60 months of supervised
identify or adopt procedures from its other program areas to          release, and ordered to pay $450,000 in restitution.
assist in monitoring and oversight. Without adequate                  Between December 2005 and September 2010, while
management controls in place, FAS cannot effectively                  employed with NRCS, the former employee made seven
monitor Section 632(a)-funded projects in Afghanistan and             false applications to a bank on behalf of a resource
faces difficulty in providing adequate assurance that the             conservation and development council requesting new
funds are effectively accomplishing program goals. We did             loans or loan extensions totaling $175,555. From 2007
not, however, identify any specific instances where                   thru 2009, she obtained over $100,000 in assets and
transferred funds were not used in accordance with the                income embezzled from the resource conservation and
memorandum of agreement or the cooperative agreement.                 development council. This investigation was conducted
While FAS agreed with all recommendations, we accepted                jointly with FBI.
management decision on one of the two recommendations.
(Audit Report 50601-0002-16, Section 632(a) Transfer of               FS Employee Pilfers Credit Cards Intended for Students
Funds from U.S. Agency for International Development to the           at Job Corps Center
U.S. Department of Agriculture for Afghanistan)
                                                                      A former FS employee was convicted in U.S. District
NASS Needs to Improve the Security of Its Sensitive                   Court, Western District of Wisconsin and was ordered in
Commodity Market Data                                                 October 2013 to serve 4 months’ home confinement and
                                                                      pay restitution of $7,818, after an investigation
NASS did not adequately enforce critical procedures and               determined he stole prepaid credit cards intended to pay
physical security measures meant to protect the security of           student travel expenses. The employee was assigned to
NASS information. Notably, although smartphones and other             a Job Corps center in Wisconsin, and used the stolen

                                                                 19
credit cards to purchase tools, gasoline, and other supplies
for his personal truck and race car. The employee also gave
some of the stolen prepaid credit cards to friends and family
members. This investigation was worked in conjunction with
FS’ Law Enforcement and Investigations.




                                                                20
GOVERNMENTWIDE ACTIVITIES—GOAL 3                                       FOIA regulations regarding both these draft provisions.
                                                                       Finally, OIG noted that it should be exempted, because of its
Testimonies                                                            statutory independence, from the draft provision requiring
                                                                       that USDA’s OGC concur on any FOIA appeal determinations.
 The House Committee on Appropriations’ Subcommittee on
Agriculture, Rural Development, Food and Drug                           OMB Substitute Amendment to S. 994, the Digital
Administration, and Related Agencies. On March 5, 2014,                Accountability and Transparency Act of 2014. OIG reviewed
Inspector General Phyllis Fong testified on OIG’s recent               OMB’s substitute amendment to S. 994 and provided
oversight of USDA programs. OIG’s FY 2013 audit and                    comments. The bill would require, among other things,
investigative work garnered potential monetary results                 Federal agencies to expand reporting on budgetary
totaling over $1.2 billion, with 54 audit reports issued and           resources, and to better link spending on Federal contracts,
551 convictions obtained. She noted that OIG’s work has                loans, and grants to programs. One section of the bill would
demonstrated that the Department and its agencies need to              require OIGs, in consultation with the Government
focus more on how they monitor their programs and ensure               Accountability Office, to review a sample of Federal agency
that participants are complying with requirements. Because             spending data and to report on the completeness, timeliness,
OIG’s recommendations help to improve these programs, our              quality, and accuracy of such data periodically to Congress.
work will have a lasting impact that reaches far beyond                OIG’s comments related to clarifying the requirement for and
quantified cost savings. The Inspector General also detailed           the timing of certain reports.
OIG’s achievements in building a leaner and more effective
agency, enabling OIG to continue performing its oversight              Participation on Committees, Working Groups, and Task
role despite functioning at the lowest level of staffing in its        Forces
history.
                                                                        Intra-Departmental Coordinating Committee on
Review of Legislation, Regulations, Directives, and                    International Affairs. OIG auditors continue to participate in
Memoranda                                                              this committee’s meetings. Headed by FAS, the purpose of
                                                                       the committee, which includes most USDA agencies, is to
 S. 1410, the Smarter Sentencing Act of 2014. OIG reviewed            coordinate international activities. Some of the issues
S. 1410, the Smarter Sentencing Act of 2014, which would,              considered by the group include agricultural trade promotion
among other things, make certain sentencing changes for                and trade policy, country strategy statements, climate change
Federal drug offenses. The bill would also require Federal             initiatives, and international food security and assistance.
agencies to report the number of Federal agency referrals of
criminal regulatory offenses to the Department of Justice for           Federal Audit Executive Council. OIG participates in the
prosecution for each of the past 15 years. OIG commented               Federal Audit Executive Council, whose main purpose is to
that the requirement to report referrals for each of the past          discuss and coordinate issues affecting the Federal audit
15 years may present a significant reporting burden and                community with special emphasis on audit policy and
suggested that consideration be given to shortening the                operations of common interest to members. The council has
number of years required to be reported, or reducing the               six standing committees: Audit, Financial Statements,
reporting burden in some other way.                                    Information Technology, Professional Development,
                                                                       Contracting, and the Annual Conference. OIG’s Assistant
 USDA Draft Regulations—Freedom of Information Act.                   Inspector General for Audit serves as the Chair of the Audit
OIG reviewed a draft update of USDA’s Freedom of                       Committee.
Information Act (FOIA) regulations. The draft update was
intended to incorporate 2008 amendments to FOIA and to                  USDA Credit Reform Workgroup. The Financial Audit
make the regulation more customer-focused and reader-                  Operations Division of OIG participates on this workgroup,
friendly. OIG provided several comments to the Department.             which is composed of representatives from all USDA credit
First, OIG had concerns with a provision that mandates                 agencies. The purpose of this workgroup is to address
processing requests where fees are assessed or outstanding.            accounting, auditing, budgeting, and reporting issues
OIG also commented regarding a provision regarding the                 encountered by agencies subject to the Federal Credit
manner in which notification to, and processing of, complex            Reform Act of 1990.
requests involving unusual circumstances is effected. OIG
recommended that USDA follow the Department of Justice’s                Financial Statement Audit Network (FSAN) Workgroup.

                                                                  21
OIG auditors are members of the FSAN workgroup, whose                designated ombudsmen with implementing the Act’s
main purpose is to share ideas, knowledge, and experience            requirements concerning the education of Federal employees
concerning Federal financial statement audits. Through               about prohibitions against retaliation for protected
coordination with FSAN, annually OIG hosts the Council of the        disclosures of fraud, waste, and abuse, and their rights and
Inspectors General on Integrity and Efficiency                       remedies if retaliation does occur.
(CIGIE)/Government Accountability Office Financial
Statement Audit Conference.                                           Financial Fraud Enforcement Task Force (formerly the
                                                                     National Procurement Fraud Task Force). OIG is a member of
 Conference Spending Reporting Requirements. OIG worked             this task force, formed by the Department of Justice in
with other IGs on the implementation of the conference               October 2006 as a partnership among Federal agencies
reporting requirements outlined in Section 3003 of the               charged with investigating and prosecuting Government
Consolidated and Further Continuing Appropriations Act of            contracting and grant illegalities. The purpose of the task
2013.                                                                force has been expanded to include a wider variety of
                                                                     financial crimes, from securities fraud to identity theft. The
 Hurricane Sandy Disaster Rebuilding Task Force.                    task force is working to better allocate resources, improve
OIG participated in and monitored USDA’s efforts related to          coordination in financial fraud cases, and accelerate its
Hurricane Sandy recovery efforts.                                    investigation and prosecution. OIG investigation field offices
                                                                     in all OIG regions participate in procurement fraud task
 Whistleblower Ombudsman Working Group. An                          forces.
OIG employee serves as USDA’s Whistleblower Protection
Ombudsman and continues to participate in the OIG                     FBI’s Public Corruption Working Group/Task Force. OIG
Whistleblower Ombudsman Working Group. This group was                agents are members of these groups in Mississippi and Utah,
established following the enactment of the Whistleblower             which are focused on combating corruption involving
Protection Enhancement Act of 2012 to assist newly                   Government officials and employees.




                                                                22
ONGOING REVIEWS FOR GOAL 3


   Department of Agriculture’s FY 2013 compliance with the Improper
    Payments Elimination and Recovery Act of 2010 (Office of the Chief
    Financial Officer (OCFO)),
   FY 2013 Executive Order 13520, Reducing Improper Payments, High Dollar
    Overpayment Report (OCFO),
   Department of Agriculture’s consolidated financial statements for FY 2014
    and 2013 (USDA),
   CIGIE Cloud Computing Initiative—status of cloud-computing environment
    within USDA (OCIO),
   review of the Department’s U.S. Bank purchase card and convenience check
    data (Office of Procurement and Property Management (OPPM)),
   review of USDA contractor databases (OPPM),
   USDA Strikeforce Initiative (OAO),
   Hispanic and women farmers and ranchers claim resolution process (USDA),
   National Program Operations Reviews (RMA),
   effectiveness of the Export Credit Guarantee Program (FAS),
   controls over Economy Act transfers and Greenbook program charges
    (OCFO),
   conservation easement compliance (NRCS),
   Livestock Forage Program (FSA),
   controls over the Conservation Stewardship Program (NRCS),
   firefighting cost share agreements with non-Federal entities (FS),
   review of selected contract actions (Office of the Assistant Secretary for
    Civil Rights),
   In re Black Farmers Discrimination Litigation—adjudicated claims (USDA),
   FY 2014 Federal Information Security Management Act (OCIO),
   oversight and compliance activities (FS),
   management and security over USDA’s universal telecommunications
    network (OCIO),
   review of initiative to modernize and innovate the delivery of agricultural
    systems (FSA),
   agreed upon procedures: employee benefits, withholdings, contributions,
    and supplemental semiannual headcount reporting submitted to the Office
    of Personnel Management (OCFO), and
   statement on standards for attestation engagements No. 16, report on
    controls at the National Finance Center (OCFO).




                                                             23
                                        Reporting Requirements
                                          Inspector General Act

IG ACT Section     IG Act Description                                  USDA OIG Reported
Section 4(a)(2)    Review of Legislation and Regulations               Pages 12 and 21
Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies      Goals 1, 2, and 3
                                                                       Pages 1-22
Section 5(a)(2)    Recommendations for Corrective Action With          Goals 1, 2, and 3
                   Respect to Significant Problems, Abuses, and        Pages 1-22
                   Deficiencies
Section 5(a)(3)    Significant Recommendations From Agency’s           Appendix A.10
                   Previous Reports on Which Corrective Action Has     Pages 37-46
                   Not Been Completed
Section 5(a)(4)    Matters Referred to Prosecutive Authorities and     Appendix B.1 and B.2
                   Resulting Convictions                               Page 48-49
Section 5(a)(5)    Matters Reported to the Head of the Agency          N/A
Section 5(a)(6)    Audit Reports Issued During the Reporting Period    Appendix A.6
                                                                       Pages 31-33
Section 5(a)(7)    Summary of Significant Reports                      Goals 1, 2 and 3
                                                                       Pages 1-22
Section 5(a)(8)    Statistical Table: Questioned Costs                 Appendix A.2
                                                                       Page 29
Section 5(a)(9)    Statistical Table: Recommendations That Funds Be    Appendix A.3
                   Put to Better Use                                   Page 29
Section 5(a)(10)   Summary of Audit Reports Issued Before the          Appendix A.7
                   Commencement of the Reporting Period for Which      Pages 34-35
                   No Management Decision Has Been Made
Section 5(a)(11)   Significant Revised Management Decisions Made       Appendix A.8
                   During the Reporting Period                         Page 36
Section 5(a)(12)   Significant Management Decisions With Which the     Appendix A.9
                   Inspector General is in Disagreement                Page 36
Section 5(a)(13)   Information Described Under Section 804(b) of the   Appendix A.11
                   Federal Financial Management Improvement Act        Page 47
                   of 1996
Section 5(a)(14)   Peer Reviews of USDA OIG                            Page 27
and (15)
Section 5(a)(16)   Peer Reviews conducted by USDA OIG                  Page 27

National Defense Authorization Act for FY 2008

Section 845        Contract Audit Reports with Significant Findings    Appendix A.4
                                                                       Page 30




                                                         24
Gauging the Impact of OIG

Measuring Progress Against the OIG Strategic Plan             •   total dollar impact of management-decision
The first way we gauged our impact was by                         reports (questioned costs and funds to be
measuring the extent to which our work focused                    put to better use),
on the key issues under our strategic goals. These            •   program improvement recommendations,
are:                                                          •   audits without management decision,
                                                              •   significant revised management decisions
   1. Strengthen USDA’s ability to implement and                  made,
      improve safety and security measures to                 •   significant management decisions with
      protect the public health as well as                        which the Inspector General is in
      agricultural and Departmental resources.                    disagreement; and
   2. Reduce program vulnerabilities and                      •   audits with recommendations pending
      strengthen program integrity in the delivery                corrective action.
      of program assistance.
   3. Provide USDA with oversight to help it               For investigations we show:
      achieve its results-oriented performance.
                                                              •   indictments,
Impact of OIG Audit and Investigative Work on                 •   convictions,
Department Programs
                                                              •   arrests,
A second way we gauge our impact is by tracking               •   total dollar impact (recoveries, restitutions,
the outcomes of our audits and investigations.                    fines, asset forfeiture),
Many of these measures are codified in the IG Act             •   administrative sanctions, and
of 1978, as amended. The following pages present              •   OIG Hotline complaints.
a statistical overview of the OIG’s accomplishments
this period.

For audits we show:

   •   reports issued,
   •   total dollar impact of reports issued
       (questioned costs and funds to be put to
       better use),
   •   contract audit reports with significant
       findings,
   •   management decisions made (number of
       reports and recommendations),




                                                      25
Performance Results Total Under Our Strategic Goals
PERFORMANCE MEASURES                                                     FY 2013   FY 2014   FY 2014
                                                                         ACTUAL    TARGET    First Half
                                                                                             ACTUAL
OIG direct resources dedicated to critical-risk and high-impact          96.6%     94%       95.5%
activities.


Audit recommendations where management decisions are                     94.4%     92%       100%
achieved within 1 year.


Mandatory, Congressional, Secretarial, and Agency requested              100%      90%       100%
audits initiated where the findings and recommendations are
presented to the auditee within established or agreed-to
timeframes (includes verbal commitments).
Closed investigations that resulted in a referral for action to          86%       75%       88.6%
USDOJ, State, or local law enforcement officials, or relevant
administrative authority.


Closed investigations that resulted in an indictment, conviction,        79.7%     70%       81.6%
civil suit or settlement, judgment, administrative action, or
monetary result.




                                                                    26
Peer Reviews and Outstanding Recommendations

Peer Reviews of USDA OIG
                                                                     The fourth recommendation pertained to the Office of
Audit                                                                Compliance and Integrity (OCI), which does not fall under the
                                                                     Office of Investigations. OCI is an independent internal affairs
During the current reporting period, there were no peer              office which is specifically positioned outside of Investigations
reviews conducted of USDA OIG’s audit organization.                  in order to enhance OCI’s independence and objectivity. This
USDA OIG received a grade of pass, the best evaluation an            structure enables OCI to objectively conduct its internal
audit organization can receive, in the most recent report on         affairs and quality assurance reviews of all OIG operations.
its peer review conducted by the Environmental Protection            As such, OCI has never been within the scope of an Office of
Agency OIG in November 2012. In that report, there were no           Investigations peer review. Although OCI is not situated
recommendations. In the letter of comment accompanying               within Investigations, the fourth recommendation suggested
that report, there were three recommendations. USDA OIG’s            an external peer review of OIG’s OCI by another OIG. Despite
audit organization has fully implemented those three                 the fact that this recommendation is beyond the scope of an
recommendations.                                                     external peer review of Investigations, OCI is currently
                                                                     voluntarily working to coordinate a peer review by another
Investigations                                                       similarly structured internal affairs OIG office, which would
                                                                     occur next fiscal year. This action is being carried out to
During the current reporting period, there were no peer              address the spirit of TIGTA’s recommendation.
reviews conducted of USDA OIG Investigations. The most
recent peer review, which was conducted by the Treasury              Peer Reviews Performed by USDA OIG
Inspector General for Tax Administration (TIGTA) in
June 2013, found Investigations to be in full compliance with        USDA OIG did not conduct a peer review of another OIG’s
the Council of the Inspectors General for Integrity and              audit or investigative organization during the current
Efficiency Quality Standards for Investigations.                     reporting period. There are no outstanding
                                                                     recommendations from any report (or from any letter of
As a result of the review TIGTA did make four                        comment accompanying any report) on a peer review
recommendations. Three of the recommendations made will              conducted by USDA OIG of another OIG’s audit or
be implemented when our new case management system                   investigative organization prior to the current reporting
becomes operational this fiscal year and our directives are          period.
updated to reflect the new case management procedures.




                                                                27
Appendix A—Audit Tables

Appendix A.1—Summary of Audit Activities—October 2013-March 2014

                                                            Audits Performed by OIG                                                     13

                 Reports Issued: 17                         Audits Performed Under the Single                                               0
                                                            Audit Act
                                                            Audits Performed by Others                                                  4
                                                            Number of Reports                                                           8
       Management Decisions Made: 42
                                                            Number of Recommendations                                                  42
                                                                                               a, b
                                                            Total Questioned/Unsupported Costs                                       $0.6
         Total Dollar Impact (Millions) of
                                                               -Recommended for Recovery                         $0.3
         Management-Decided Reports:
                                                               -Not Recommended for Recovery                     $0.3
                  $192.5 million
                                                            Funds To Be Put to Better Use                                         $191.9
a
  These were the amounts the auditees agreed to at the time of management decision.
b
  The recoveries realized could change as auditees implement the agreed-upon corrective action plan and seek recovery of amounts recorded
as debts due the Department.




Summary of Interim Reports Issued—October 2013-March 2014

OIG uses Interim Reports to alert management to immediate issues during the course of an ongoing audit assignment. Typically,
they report on one issue or finding requiring management’s attention. OIG did not issue any Interim Reports during this reporting
period.




                                                                              28
Appendix A.2—Inventory of Audit Reports with Questioned Costs and Loans from October 1, 2013 through
March 31, 2014

                                                                     QUESTIONED COSTS AND              UNSUPPORTEDa
                    CATEGORY                                NUMBER          LOANS                     COSTS AND LOANS
    Reports for which no management decision
                                                              7                     $400,653,371            $34,685,259
       had been made by October 1, 2013.b
      Reports which were issued during the
                                                              3                         $946,009              $633,349
                 reporting period.
     Total reports with questioned costs and
                                                              10                    $401,599,380           $35,318,608
                       loans
                                                                     Recommended for
                                                                                           $265,819                  $0
                                                                     recovery
       Of the 10 reports, those for which
    management decision was made during the                   2      Not recommended
                                                                                           $261,253                  $0
                                                                     for recovery
               reporting period.
                                                                     Costs not
                                                                                            $26,078                  $0
                                                                     disallowed
   Of the 10 reports, those for which no
management decision has been made by the                      8                     $401,046,230            $35,318,608
        end of this reporting period.
a
    Unsupported values are included in questioned values.
b
    Carried over from previous reporting periods.




Appendix A.3—Inventory of Audit Reports with Recommendations that Funds Be Put to Better Use

                              CATEGORY                                            NUMBER              DOLLAR VALUE
     Reports for which no management decision had been made by
                                                                                    3                       $182,982,636
                           October 1, 2013.a
         Reports which were issued during the reporting period.                     3                       $103,178,578
    Total reports with recommendations that funds be put to better
                                                                                    6                       $286,161,214
                                 use
                                                                                              Disallowed
                                                                                                             $191,942,964
    Of the 6 reports, those for which management decision was made                            costs
                                                                                    2
                        during the reporting period.                                          Costs not
                                                                                              disallowed
                                                                                                                      $0

     Of the 6 reports, those for which no management decision has
                                                                                    4                        $97,587,678
             been made by the end of this reporting period.
a
    Carried over from previous reporting periods.




                                                                     29
Appendix A.4—Contract Audit Reports with Significant Findings

OIG is required by the National Defense Authorization Act for FY 2008 to list all contract audit reports issued
during the reporting period that contained significant findings. OIG did not issue any such reports from
October 1, 2013 through March 31, 2014.

Appendix A.5—Program Improvement Recommendations

A significant number of our audit recommendations carry no monetary value per se, but their impact can be
immeasurable in terms of safety, security, and public health. They can also contribute considerably toward
economy, efficiency, and effectiveness in USDA’s programs and operations. During this reporting period, we
issued 74 program improvement recommendations, and management agreed to implement a total of
28 recommendations that were issued this period or earlier. Examples of those issued this period include the
following (see the main text of this report for a summary of the audits that prompted these
recommendations):
      RBS should review its programs to eliminate duplication, reduce its risk of making improper payments,
       and ensure that its resources are used prudently.
      FAS needs to establish a comprehensive management control environment for Section 632(a) funds
       used for agricultural capacity-building activities abroad.
      NASS must better enforce critical procedures and physical security measures meant to protect the
       security of NASS information so that sensitive information is not leaked before its official release.




                                                       30
Appendix A.6—Audit Reports

From October 1, 2013, through March 31, 2014, OIG released 17 audit reports, including 4 performed by
others. During this same period, no Interim reports were issued. The following is a summary of those audit
products by agency:

Audit Report Totals at Issuance

Total funds that can be put to better use                       $103,178,578

Total questioned costs and loansa                               $946,009
a
    Unsupported values of $633,349 are included in the questioned values.

Summary of Audit Reports Released from October 1, 2013 through March 31, 2014

                                                                   QUESTIONED      UNSUPPORTED      FUNDS TO BE
                                                    AUDITS          COSTS AND       COSTS AND      PUT TO BETTER
        AGENCY TYPE                                RELEASED          LOANS a         LOANS a            USE
SINGLE AGENCY AUDIT                                   10                $768,524        $520,464           $8,481
MULTIAGENCY AUDIT                                      7                $177,485        $112,885     $103,170,097
TOTAL COMPLETED UNDER                                  4
CONTRACT b
ISSUED AUDITS COMPLETED                                  0
UNDER THE SINGLE AUDIT ACT
a
    Unsupported values are included in the questioned values.
b
    Audits performed by others.




                                                                           31
Audit Reports Released and Associated with Monetary Values from October 1, 2013 through March 31, 2014

                                                                                                    UNSUP-
      AUDIT                                                                    QUESTIONED           PORTED         FUNDS TO BE
    TOTALS BY          AUDIT         RELEASE                                    COSTS AND          COSTS AND          PUT TO
     AGENCY          NUMBER            DATE                  TITLE                LOANS              LOANS          BETTER USE
                   01099-0001-21    01/28/14      AMS: Oversight of the
    Agricultural
                                                  Beef Promotion and
    Marketing
                                                  Research Board’s
     Service: 1                                              1
                                                  Activities
    Commodity      06401-0003-11    12/05/13      CCC’s Financial
       Credit                                     Statements for FYs
    Corporation:                                  2013 and 2012
         1
     Food and      27401-0003-21    12/06/13      FNS’ Financial
     Nutrition                                    Statements for FYs
     Service: 1                                   2013 and 2012
      Foreign      07601-0001-22    03/31/14      Private Voluntary                  $685,646         $520,464            $8,481
    Agricultural                                  Organization Grant
     Service: 1                                   Fund Accountability
                   08401-0003-11    12/09/13      Forest Service’s
      Forest
                                                  Financial Statements
     Service: 1
                                                  for FYs 2013 and 2012
                   50401-0005-11    12/13/13      Department of
                                                  Agriculture’s
                                                  Consolidated Financial
                                                  Statements for FYs
                                                  2013 and 2012
                   50401-0006-11    12/17/13      Department of
                                                  Agriculture’s Closing
Multi-Agency:                                     Package Financial
      7                                           Statements for FYs
                                                  2013 and 2012
                   50501-0004-12    11/26/13      USDA Office of the
                                                  Chief Information
                                                  Officer, FY 2013,
                                                  Federal Information
                                                  Security Management
                                                  Act
                   50601-0001-21    12/04/13      In Re Black Farmers
                                                  Discrimination
                                                  Litigation
                   50601-0001-41    03/24/14      Rural Development                                                 $38,070,097
                                                  Procurement Controls
                   50601-0002-16    02/06/14      Section 632(a) Transfer
                                                  of Funds from USAID to
                                                  USDA for Afghanistan
                   50703-0001-23    10/18/13      American Recovery and              $177,485         $112,885      $65,100,000
                                                  Reinvestment Act,
                                                  Trade Adjustment
                                                  Assistance for Farmers
                                                  Program




1
 This is a reissuance of our audit report originally dated March 29, 2013. In response to a complaint we received on the quality of our report, we
removed the original report from our website. In addition, the FY 2013 annual statistics in our prior semiannual report to Congress were reduced
by one report and two program improvement recommendations due to the removal of the audit. We re-engaged with the agency and conducted
additional audit and quality control procedures; our subsequent report reaffirmed the finding and recommendations. OIG published its revised
report January 2014.
                                                                        32
                                                                                              UNSUP-
    AUDIT                                                                     QUESTIONED      PORTED       FUNDS TO BE
 TOTALS BY             AUDIT          RELEASE                                  COSTS AND     COSTS AND        PUT TO
   AGENCY            NUMBER             DATE                  TITLE              LOANS         LOANS        BETTER USE
   National        26501-0001-12     02/21/14       Security Review of the
 Agricultural                                       NASS’ Lockup
and Statistical                                     Procedures
  Service: 1
   Natural         10401-0003-11     12/09/13       NRCS’ Financial
  Resources                                         Statements for FYs
Conservation                                        2013 and 2012
  Service: 2
                   05401-0003-11     12/12/13       Federal Crop Insurance
   Risk
                                                    Corporation/RMA’s
Management
                                                    Financial Statements
 Agency: 1
                                                    for FYs 2013 and 2012
                   34601-0001-31     03/25/14       Rural Development:             $82,878
       Rural                                        Rural Business-
     Business-                                      Cooperative Service
    Cooperative                                     Grant Programs -
     Service: 1                                     Duplication

                   85401-0003-11     12/10/13       Rural Development’s
                                                    Financial Statements
    Rural
                                                    for FYs 2013 and 2012
Development:
      1


                   Grand Total: 17                                                $946,009      $633,349   $103,178,578
a
    Unsupported values are included in questioned values.




                                                                         33
Appendix A.7—Management Decision

In total, OIG has 10 audits without management decision. Their details are provided in the tables below:

New for this Reporting Period

                                                                                      Amount With
                                                                    Total Value at      No Mgmt
                                                                     Issuance (in      Decision (in
 Agency     Date Issued              Title of Report                   dollars)          dollars)
FNS        07/31/13       FNS: Controls for Authorizing              $77,300,000      $72,000,000
                          Supplemental Nutrition Assistance
                          Program Retailers
                          (27601-0001-31)
OHSEC      09/27/13       Classification Management                             $0              $0
                          (61701-0001-32)
Total New For This Reporting Period: 2



Audit Reports Previously Reported but not yet Resolved

                                                                                      Amount With
                                                                     Total Value at     No Mgmt
                Date                                                  Issuance (in     Decision (in
 Agency        Issued                  Title of Report                  dollars)         dollars)
FS          07/03/12      American Recovery and Reinvestment             $406,534         $317,741
                          Act – Forest Service Capital
                          Improvement and Maintenance
                          Projects – Trail Maintenance and
                          Decommissioning (08703-0004-SF)
FS          03/28/13      Recovery Act - Forest Service               $91,773,548      $58,229,927
                          Hazardous Fuels Reduction and
                          Ecosystem Restoration on Non-Federal
                          Lands (08703-0005-SF)
FSA         02/02/09      Hurricane Relief Initiatives: Livestock      $1,866,412         $427,276
                          and Feed Indemnity Programs
                          (03601-0023-KC)
Multi       11/15/11      FY 2011 Federal Information Security                  $0               $0
                          Management Act Report
                          (50501-0002-12)
            11/15/12      FY 2012 Federal Information Security                  $0               $0
                          Management Act Report
                          (50501-0003-12)
            03/28/13      Effectiveness of the Department’s                     $0               $0
                          Recent Efforts to Enhance Agricultural
                          Trade (50601-0001-22)
RMA         03/04/09      RMA’s 2005 Emergency Hurricane            $217,256,417 $217,256,417
                          Relief Efforts In Florida
                          (05099-0028-At)

                                                         34
                                                                                 Amount With
                                                                Total Value at     No Mgmt
                Date                                             Issuance (in     Decision (in
 Agency        Issued                 Title of Report              dollars)         dollars)
            09/07/11      Citrus Indemnity Payments Resulting    $44,059,385     $44,059,385
                          from 2005 Florida Hurricanes
                          (05099-0029-At)
Total Previously Reported But Not Yet Resolved: 8

Audits Without Management Decision—Narrative for new entries

FNS: Controls for Authorizing Supplemental Nutrition Assistance Program Retailers (27601-0001-31, issued
July 31, 2013)

OIG found that FNS does not have clear procedures and guidance to carry out key oversight and enforcement
activities to address SNAP retailer fraud or adequate authority to prevent multiple instances of fraud—either
by a particular owner or within a particular location. In addition, FNS regional offices put their limited
resources towards other activities, such as retailer authorization, rather than assessing and enforcing retailer
penalties. We accepted management decision for 12 of the 20 recommendations. In the eight
recommendations without management decision, OIG recommended that FNS seek legislative changes to
retain penalties as a supplement to its annual appropriations for enhancing its oversight of retailer
authorization and enforcement actions, and allow FNS the authority to require any applicant of a location that
has been previously permanently disqualified for trafficking to have a vested interest. We also recommended
FNS revise its regulations to permanently disqualify retail store owners at all authorized retail locations
operated by that owner(s) if the owner(s) does not meet the criteria to receive a trafficking civil money
penalty in lieu of permanent disqualification and improve controls over assessing penalties. To reach
management decision, FNS will need to provide copies of the decision memoranda to the Secretary requesting
legislative change that lays out the need for retention of penalties for enhanced enforcement activities and
authority to require an applicant to have a vested interest. Additionally, FNS will need to provide revised
regulations regarding continued eligibility requirements of permanently disqualified retail store owners for
trafficking. FNS will also need to provide documentation of improved controls over assessing trafficking
penalties.

Classification Management (61701-0001-32, issued September 27, 2013)

We found that the Personnel and Document Security Division (PDSD) lacks proper guidance for key areas
relating to classification management and can improve its records management system. We accepted
management decision for 12 of the report’s 17 recommendations. In the five recommendations without
management decision, OIG directed the agency to improve its guidance in key areas relating to classification
management and records management system.




                                                        35
Appendix A.8—Significant Revised Management Decisions Made During the Reporting Period

Audit Report 27002-0010-13, Analysis of New York's Supplemental Nutrition Assistance Program (SNAP)
Eligibility Data

We agreed to a change in management decision (and final action) for Recommendation 3. We had
recommended that New York’s Office of Temporary and Disability Assistance to review the individuals
identified in this report and determine if participants have received improper payments and recover improper
payments as appropriate. We accepted FNS’ request for a change in management decision because we
agreed that reviewing the various audit universes would not be an appropriate use of limited resources.

Audit Report 24601-0003-31, Food Safety and Inspection Service (FSIS) E.coli Testing of Boxed Beef

We agreed to a change in management decision (and final action) for Recommendations 2 and 10. We
recommended that FSIS prepare a plan with reasonable timeframes to evaluate whether the Public Health
Information System should be modified or developed in order to improve FSIS’ ability to assign the
appropriate E. coli sampling program requests, and implement any necessary actions based on the evaluation.
We also recommended that FSIS issue additional guidance regarding common profile entry errors that are
causing establishments to be placed in inappropriate sampling programs.

In FSIS’ request for change in management decision, FSIS reported that, for both recommendations, it issued
Notice 81-13, Classification and Expansion of Sampling Eligibility Criteria for the Routine Beef Manufacturing
Trimmings (MT60) and Bench Trim (MT55) Sampling Program, in December 2013. We determined that this
Notice addresses the issues identified in our audit.

Appendix A.9—Significant Management Decisions With Which the Inspector General is in Disagreement

OIG is required by the IG Act of 1978 to report information concerning any significant management decision
during the reporting period with which the Inspector General is in disagreement. There were no such
management decisions during this reporting period.




                                                      36
Appendix A.10—List of OIG Audits with Recommendations Pending Corrective Action
for Period Ending March 31, 2014

                                                                          Recommendation Numbers

                                                                   Pending                        Pending
                                                         Total    Monetary        Pending        Management
                                              Issue     Number    Collection    Final Action      Decision
  Audit Number          Audit Title           Date      of Recs    (OCFO)          (OCFO)           (OIG)

AGRICULTURAL MARKETING SERVICE

01601-0001-32    NATIONAL ORGANIC            02/27/12     2           0             6, 7             0
                 PROGRAM - ORGANIC MILK
01601-0002-32    NATIONAL ORGANIC            07/15/13     6           0         1,2,3,4,5,6          0
                 PROGRAM - ORGANIC MILK
                 OPERATIONS
50601-0002-31    FSIS’ AND AMS’ FIELD-       07/31/13     24          0         2, 3, 4, 5, 6,       0
                 LEVEL WORKFORCE                                                8, 9, 10, 11,
                 CHALLENGES                                                     12, 13, 14,
                                                                                15, 16, 17,
                                                                                18, 19, 20,
                                                                                21, 22, 23,
                                                                                 24, 25, 26
50601-0001-23    USDA CONTROLS OVER          11/30/12     1           0              10              0
                 SHELL EGG INSPECTIONS

TOTAL                                                     33          0              33              0

ANIMAL AND PLANT HEALTH INSPECTION SERVICE

33601-0003-CH    SAFEGUARDS TO PREVENT       02/20/03     2           0             1, 16            0
                 ENTRY OF PROHIBITED
                 PESTS AND DISEASES INTO
                 THE UNITED STATES
33601-0007-CH    REVIEW OF CUSTOMS AND       02/21/07     1           0               1              0
                 BORDER PROTECTION’S
                 AGRICULTURAL
                 INSPECTION ACTIVITIES
33601-0011-CH    USDA’S CONTROLS OVER        08/13/10     1           0              12              0
                 ANIMAL IMPORT CENTERS
33601-0012-CH    EFFECTIVENESS OF THE        08/24/12     1           0               2              0
                 SMUGGLING,
                 INTERDICTION, AND TRADE
                 COMPLIANCE UNIT
50601-0008-TE    CONTROLS OVER APHIS’        12/08/05     3           0            1, 2, 3           0
                 ISSUANCE OF GENETICALLY
                 ENGINEERED ORGANISMS
                 RELEASE PERMITS
50601-0016-TE    CONTROLS OVER               05/31/11     1           0               2              0
                 GENETICALLY ENGINEERED
                 ANIMAL AND INSECT
                 RESEARCH
TOTAL                                                     9           0               9              0

AGRICULTURAL RESEARCH SERVICE

02703-0001-12    CONTRACT CLOSEOUT           08/14/13     3           0             1,2,3            0
                 PROCESS (RECOVERY ACT)
                                                           37
                                                                       Recommendation Numbers

                                                                Pending                        Pending
                                                      Total    Monetary        Pending        Management
                                            Issue    Number    Collection    Final Action      Decision
 Audit Number           Audit Title         Date     of Recs    (OCFO)          (OCFO)           (OIG)
50601-0006-TE    CONTROLS OVER PLANT      02/10/06      6           0        1, 2, 3, 5, 6,        0
                 VARIETY PROTECTION AND                                            9
                 GERMPLASM STORAGE
50601-0010-AT    FOLLOWUP REVIEW ON       07/27/05     1           0               2                0
                 THE SECURITY OF
                 BIOHAZARDOUS MATERIAL
                 AT USDA LABORATORIES
TOTAL                                                  10          0              10                0

COMMODITY CREDIT CORPORATION

06401-0020-FM    MONITORING THE AUDIT     11/09/05     1           0              12                0
                 OF CCC’S FY 2005
                 FINANCIAL STATEMENTS
TOTAL                                                  1           0               1                0

DEPARTMENTAL MANAGEMENT

TOTAL            NO AUDITS                             0           0               0                0

FOREIGN AGRICULTURAL SERVICE

50601-0001-22    EFFECTIVENESS OF FAS’    03/28/13     5           0           1, 3, 4, 5           2
                 RECENT EFFORTS TO
                 IMPLEMENT MEASURABLE
                 STRATEGIES ALIGNED TO
                 THE DEPARTMENT’S TRADE
                 PROMOTION AND POLICY
                 GOALS
TOTAL                                                  5           0               4                1

FOOD AND NUTRITION SERVICE

27001-0001-10    OVERLAP AND              06/13/13     2           0             1, 2               0
                 DUPLICATION IN FNS’
                 NUTRITION PROGRAMS
27002-0011-13    ANALYSIS OF FNS’         09/28/12     8           0         1, 2, 3, 4, 5,         0
                 SUPPLEMENTAL                                                   6, 8, 9
                 NUTRITION ASSISTANCE
                 PROGRAM FRAUD
                 PREVENTION AND
                 DETECTION EFFORTS
27099-0049-TE    FOOD STAMP PROGRAM       09/04/07     1           0               1                0
                 FOR HURRICANES KATRINA
                 AND RITA
27601-0001-23    NATIONAL SCHOOL LUNCH    01/03/13     15          0        1, 2, 3, 4, 5,          0
                 PROGRAM FOOD SERVICE                                       6, 7, 8, 9, 10,
                 MANAGEMENT COMPANY                                          11, 12, 13,
                 CONTRACTS                                                      14, 15
27601-0001-31    FNS: CONTROLS FOR        07/31/13     20          0        1, 2, 3, 4, 8,    5, 6, 7, 9, 10,
                 AUTHORIZING SNAP                                            12, 13, 14,       11, 16, 17
                 RETAILERS                                                   15, 18, 19,
                                                                                  20
                                                        38
                                                                        Recommendation Numbers

                                                                 Pending                        Pending
                                                       Total    Monetary        Pending        Management
                                             Issue    Number    Collection   Final Action       Decision
 Audit Number            Audit Title         Date     of Recs    (OCFO)         (OCFO)            (OIG)
27601-0012-SF    REVIEW OF MANAGEMENT      11/18/11      15          0       1, 2, 3, 4, 5,         0
                 CONTROLS FOR THE CHILD                                      6, 7, 8, 9, 10,
                 AND ADULT CARE FOOD                                          11, 12, 13,
                 PROGRAM                                                         14, 15
27601-0016-AT    FOOD STAMP                03/31/08     1           0               1                0
                 EMPLOYMENT AND
                 TRAINING PROGRAM
27601-0038-CH    VENDOR MANAGEMENT IN      03/29/13     9           0         1, 2, 3, 4, 5,         0
                 FNS’ SPECIAL                                                  6, 7, 8, 9
                 SUPPLEMENTAL
                 NUTRITION PROGRAM FOR
                 WOMEN, INFANTS, AND
                 CHLIDREN
27703-0001-22    RECOVERY ACT IMPACTS      06/13/13     1           1               0                0
                 ON SUPPLEMENTAL
                 NUTRITION ASSISTANCE
                 PROGRAM PHASE II
50601-00014-AT   EFFECTIVENESS AND         08/16/10     3           0          11, 12, 14            0
                 ENFORCEMENT OF
                 SUSPENSION AND
                 DEBARMENT REGULATIONS
                 IN USDA
TOTAL                                                   75          1              66                8

FOREST SERVICE

08601-0001-CH    EVALUATION OF FOREST      03/15/12     1           0               2                0
                 SERVICE’S PROCESS TO
                 OBTAIN AND GRANT
                 RIGHTS-OF-WAY AND
                 EASEMENTS
08601-0055-SF    FOREST SERVICE’S          06/16/11     2           0             2, 17              0
                 ADMINISTRATION OF
                 SPECIAL USE PROGRAM

08703-0001-AT    FOREST SERVICE’S USE OF   09/28/12     8           0         1, 2, 3, 4, 5,         0
                 RECOVERY ACT FUNDS FOR                                         8, 9, 10
                 WILDLAND FIRE
                 MANAGEMENT ON
                 FEDERAL LANDS
08703-0004-SF    RECOVERY ACT - FOREST     07/03/12     1           0               0                3
                 SERVICE CAPITAL
                 IMPROVEMENT AND
                 MAINTENANCE PROJECTS -
                 TRAIL MAINTENANCE AND
                 DECOMISSIONING
08703-0005-SF    RECOVERY ACT - FOREST     03/28/13     37          0         1, 2, 3, 5, 6,    8, 9, 10, 11,
                 SERVICE HAZARDOUS                                            12, 13, 14,      22, 23, 31, 47,
                 FUELS REDUCTION AND                                          19, 20, 21,            50
                 ECOSYSTEM RESTORATION                                        24, 25, 26,
                 PROJECTS ON NON-                                             27, 28, 30,
                 FEDERAL LANDS                                                32, 37, 38,
                                                                              40, 42, 48,
                                                                              49, 51, 56,
                                                         39
                                                                         Recommendation Numbers

                                                                Pending                          Pending
                                                      Total    Monetary          Pending        Management
                                           Issue     Number    Collection      Final Action      Decision
 Audit Number          Audit Title         Date      of Recs    (OCFO)            (OCFO)           (OIG)
                                                                                   57, 58




TOTAL                                                  49          0                39              10


FARM SERVICE AGENCY

03006-0001-TE   1993 CROP DISASTER        01/02/96     1          1A                 0              0
                PAYMENTS - BROOKS/JIM
                HOGG COS., TX
03006-0002-SF   DISASTER ASSISTANCE       03/29/96     1           4                 0              0
                PROGRAM - 1994 - FRESNO
                COUNTY, CA
03099-0181-TE   FSA PAYMENT LIMITATION    05/09/08     1           2                 0              0
                REVIEW IN LOUISIANA
03601-0007-TE   EMERGENCY FEED            09/18/96     3       4A, 5B, 6A            0              0
                PROGRAM IN TEXAS


03601-0012-AT   TOBACCO TRANSITION        09/26/07     2          2, 6               0              0
                PAYMENT PROGRAM –
                QUOTA HOLDER
                PAYMENTS AND FLUE-
                CURED TOBACCO QUOTAS
03601-0013-AT   HURRICANE RELIEF          03/10/08     1           5                 0              0
                INITIATIVES: TREE
                INDEMNITY PROGRAM
03601-0018-CH   FSA FARM LOAN SECURITY    08/10/10     1           0                 2

03601-0023-KC   FSA HURRICANE RELIEF      02/02/09     2           0                 4              5
                INITIATIVES: LIVESTOCK
                INDEMNITY AND FEED
                INDEMNITY PROGRAMS
03601-0028-KC   BIOMASS CROP              05/30/12     24      16, 21, 24      1, 2, 3, 5, 6,       0
                ASSISTANCE PROGRAM:                                            7, 8, 9, 10,
                COLLECTION, HARVEST,                                           11, 12, 13,
                STORAGE AND                                                    14, 15, 17,
                TRANSPORTATION                                                 18, 19, 20,
                MATCHING PAYMENTS                                               22, 23, 26
                PROGRAM
50099-0011-SF   NRCS AND FSA: CROP        08/27/07     2          2, 6               0              0
                BASES ON LANDS WITH
                CONSERVATION EASEMENT
                – STATE OF CALIFORNIA
50601-0015-AT   HURRICANE INDEMNITY       03/31/10     1           5                 0              0
                PROGRAM – INTEGRITY OF
                DATA PROVIDED BY RMA
50601-0015-KC   ESTABLISHMENT OF          08/01/11     1           2                 0              0
                AVERAGE YIELDS

                                                        40
                                                                          Recommendation Numbers

                                                                   Pending                        Pending
                                                         Total    Monetary        Pending        Management
                                              Issue     Number    Collection    Final Action      Decision
 Audit Number           Audit Title           Date      of Recs    (OCFO)          (OCFO)           (OIG)
TOTAL                                                      40         16             23               1

FOOD SAFETY AND INSPECTION SERVICE

24601-0008-CH    EGG PROCESSING              09/06/07     1           0               1              0
                 INSPECTION
24601-0008-HY    FOLLOW-UP REVIEW OF         08/04/08     2           0            13, 17            0
                 FSIS CONTROLS OVER
                 IMPORTED MEAT AND
                 POULTRY PRODUCTS
24601-0001-31    APPLICATION OF FSIS         05/09/12     3           0            2, 4, 5           0
                 SAMPLING PROTOCOL FOR
                 TESTING BEEF TRIM FOR
                 E. COLI O157:H7
24601-0001-41    FSIS – INSPECTION AND       05/09/13     4           0          3, 7, 8, 9          0
                 ENFORCEMENT ACTIVITIES
                 AT SWINE SLAUGHTER
                 PLANTS
24601-0003-31    FSIS E.COLI TESTING OF      03/22/13     8           0         1, 3, 4, 7, 8,       0
                 BOXED BEEF                                                      9, 11, 12
50601-0006-HY    ASSESSMENT OF USDA’S        07/15/09     1           0               2              0
                 CONTROLS TO ENSURE
                 COMPLIANCE WITH BEEF
                 EXPORT REQUIREMENTS
50601-0001-23    USDA CONTROLS OVER          11/30/12     4           0          1, 2, 3, 7          0
                 SHELL EGG INSPECTIONS

TOTAL                                                     23          0              23              0

NATIONAL AGRICULTURAL STATISTICS SERVICE

TOTAL            NO AUDITS                                0           0               0              0

NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

TOTAL            NO AUDITS                                0           0               0              0
NATURAL RESOURCES CONSERVATION SERVICE

10099-0001-31    NRCS’ ADMINISTRATION        09/27/13     6           0         1, 2, 3, 4, 5,       0
                 OF EASEMENT PROGRAMS                                                 7
                 IN WYOMING
10401-0001-11    NRCS’ FINANCIAL             11/08/11     4           0          3, 4, 5, 6          0
                 STATEMENTS FOR FY 2011
10401-0002-11    NRCS’ FINANCIAL             11/09/12     7           0         1, 2, 3, 4, 5,       0
                 STATEMENTS FOR FY 2012                                             6, 7

10401-0002-FM    NRCS’ FINANCIAL             11/13/08     2           0             4, 5             0
                 STATEMENTS FOR FY 2008
10401-0003-FM    NRCS’ FINANCIAL             11/04/09     4           0          2, 3, 4, 5          0
                 STATEMENTS FOR FY 2009


                                                           41
                                                                           Recommendation Numbers

                                                                    Pending                        Pending
                                                          Total    Monetary        Pending        Management
                                                Issue    Number    Collection    Final Action      Decision
 Audit Number             Audit Title           Date     of Recs    (OCFO)          (OCFO)           (OIG)
10401-0004-FM     NRCS’ FINANCIAL             11/08/10      6           0        1, 2, 3, 4, 5,        0
                  STATEMENTS FOR FY 2010                                               6
10601-0001-22     NRCS’ OVERSIGHT AND         02/07/13     4           0           1, 2, 4, 5         0
                  COMPLIANCE ACTIVITIES
10601-0004-KC     NRCS’ SECURITY PROGRAM      06/25/09     2           0             8, 9             0

10703-0001-31     RECOVERY ACT - NRCS’        03/14/13     1           0               2              0
                  EASEMENT WATERSHED
                  PROTECTION PROGRAM
                  FLOODPLAIN EASEMENTS
                  AND WATERSHED
                  OPERATIONS
                  EFFECTIVENESS REVIEW
10703-0001-AT     RECOVERY ACT -              03/25/13     4           0           1, 2, 4, 5         0
                  REHABILITATION OF FLOOD
                  CONTROLS DAMS
10703-0001-KC     NRCS RECOVERY ACT           09/08/10     1           0               4              0
                  EMERGENCY WATERSHED
                  PROTECTION PROGRAM
                  FLOODPLAIN EASEMENTS
                  PHASE I
10703-0003-KC     RECOVERY ACT,               03/14/12     3           0            1, 2, 3           0
                  EMERGENCY WATERSHED
                  PROTECTION PROGRAM
                  FLOODPLAIN EASEMENTS,
                  EASEMENT APPLICATIONS
                  ON NON-AGRICULTURAL
                  LAND
10703-0005-KC     RECOVERY ACT - NRCS’        03/14/13     6           6         1, 2, 3, 4, 5        0
                  EASEMENT WATERSHED
                  PROTECTION PROGRAM
                  FLOODPLAIN EASEMENTS
                  FIELD CONFIRMATIONS
10704-0001-32     NRCS, MIGRATORY BIRD        08/09/12     2           2               1              0
                  HABITAT INITIATIVE: NRCS’
                  RESPONSE TO ISSUE
                  CAUSED BY THE
                  DEEPWATER HORIZON OIL
                  SPILL
TOTAL                                                      52          2              50              0

OFFICE OF THE ASSISTANT SECRETARY FOR CIVIL RIGHTS

TOTAL             NO AUDITS                                0           0               0              0

OFFICE OF THE CHIEF FINANCIAL OFFICER

50024-0004-11     USDA IMPROPER               03/14/13     1           0               3              0
                  PAYMENTS ELIMINATION
                  AND RECOVERY ACT OF
                  2010 COMPLIANCE REVIEW
                  FOR FY 2012


                                                            42
                                                                         Recommendation Numbers

                                                                  Pending                        Pending
                                                        Total    Monetary        Pending        Management
                                              Issue    Number    Collection    Final Action      Decision
 Audit Number            Audit Title          Date     of Recs    (OCFO)          (OCFO)           (OIG)
50401-0003-11    USDA’S CONSOLIDATED        11/15/12      1           0              1               0
                 FINANCIAL STATEMENTS
                 FOR FYS 2012 AND 2011
TOTAL                                                    2           0               2               0

OFFICE OF HOMELAND SECURITY AND EMERGENCY OPERATIONS

61701-0001-32    CLASSIFICATION             09/27/13     17          0         3, 4, 5, 6, 7,   1, 2, 11, 12,
                 MANAGEMENT                                                    8, 9, 10, 13,         17
                                                                                14, 15, 16

TOTAL                                                    17          0              12               5

OFFICE OF THE CHIEF INFORMATION OFFICER

50501-0001-IT    USDA’S MANAGEMENT          08/15/11     4           0          1, 2, 3, 4           0
                 AND SECURITY OVER
                 WIRELESS HANDHELD
                 DEVICES
50501-0001-12    USDA’S CONFIGURATION,      04/19/12     1           0               3               0
                 MANAGEMENT, AND
                 SECURITY OVER DOMAIN
                 NAME SYSTEM SERVERS
50501-0002-12    FY 2011 FEDERAL            11/15/11     7           0         1, 2, 3, 4, 5,        6
                 INFORMATION SECURITY                                                7
                 MANAGEMENT ACT
50501-0002-IT    FY 2010 FEDERAL            11/15/10     12          0         3, 4, 5, 6, 7,        0
                 INFORMATION SECURITY                                         9, 10, 14, 15,
                 MANAGEMENT ACT                                                 17, 18, 19
50501-0003-12    USDA, OFFICE OF THE        11/15/12     6           0         2, 3, 4, 5, 6         1
                 CHIEF INFORMATION
                 OFFICER, FY 2012 FEDERAL
                 INFORMATION SECURITY
                 MANAGEMENT ACT
50501-0015-FM    FY 2009 FEDERAL            11/18/09     3           0           8, 9, 13            0
                 INFORMATION SECURITY
                 MANAGEMENT ACT
88401-0001-11    REVIEW OF SELECTED         09/26/12     3           0            1, 2, 3            0
                 CONTROLS AT THE
                 NATIONAL INFORMATION
                 TECHNOLOGY CENTER
88401-0001-12    AUDIT OF OCIO’S FY 2010    08/02/12     3           0            1, 2, 4            0
                 AND 2011 FUNDING
                 RECEIVED FOR SECURITY
                 ENHANCEMENTS
88501-0001-12    REVIEW OF SELECTED         01/31/13     1           0               5               0
                 CONTROLS OF THE
                 EAUTHENTICATION
                 SYSTEM
88501-0001-IT    INTERNATIONAL              03/20/12     4           0          2, 3, 4, 5           0
                 TECHNOLOGY SERVICES
                 SELECTED CONTROLS
                 AUDIT


                                                          43
                                                                         Recommendation Numbers

                                                                Pending                          Pending
                                                      Total    Monetary          Pending        Management
                                           Issue     Number    Collection      Final Action      Decision
 Audit Number          Audit Title         Date      of Recs    (OCFO)            (OCFO)           (OIG)
TOTAL                                                   44          0               42               2


RURAL DEVELOPMENT

04601-0018-CH   RURAL DEVELOPMENT’S       09/27/12     6           0           1, 2, 3, 4, 5,       0
                RURAL RENTAL HOUSING                                                 6
                PROGRAM MAINTENANCE
                COSTS AND INSPECTION
                PROCEDURES
04601-0020-CH   RURAL RENTAL HOUSING      05/19/11     2           0               4, 5             0
                PROGRAM - MIDWEST
                APARTMENT AND
                MANAGEMENT GROUP,
                INC.
04703-0002-CH   CONTROLS OVER             09/28/11     23          0           3, 4, 5, 6, 7,       0
                ELIGIBILITY                                                    8, 9, 10, 11,
                DETERMINATIONS FOR                                             12, 13, 14,
                SINGLE FAMILY HOUSING                                          15, 16, 17,
                GUARANTEED LOAN                                                18, 20, 23,
                RECOVERY ACT FUNDS                                             25, 26, 27,
                (PHASE 2)                                                         28, 29
04703-0003-HY   LOSS CLAIMS RELATED TO    02/25/13     20        1, 12         2, 4, 5, 6, 7,       0
                SINGLE FAMILY HOUSING                                          8, 9, 10, 11,
                GUARANTEED LOANS                                               15, 16, 17,
                                                                               18, 19, 20,
                                                                                21, 22, 23
09703-0001-22   RURAL UTILITIES SERVICE   03/26/13     3           0              1, 2, 3           0
                CONTROLS OVER
                RECOVERY ACT WATER
                AND WASTE LOANS AND
                GRANTS EXPENDITURES
                AND PERFORMANCE
                MEASURES
09703-0001-32   RECOVERY ACT -            03/29/13     5           0           1, 2, 3, 6, 7        0
                BROADBAND INITIATIVES
                PROGRAM - PRE-
                APPROVAL CONTROLS
09703-0002-32   RECOVERY ACT -            08/22/13     4           0            2, 3, 6, 7          0
                BROADBAND INITIATIVES
                PROGRAM - POST-AWARD
                CONTROLS
34099-0002-AT   BUSINESS AND INDUSTRY     09/14/01     1           0                 6              0
                LOAN PROGRAM
                OMNIVEST RESOURCES
                INC.
34601-0004-AT   LENDER SERVICING OF B&I   01/10/03     5           0           1, 2, 3, 4, 7        0
                GUARANTEED LOANS
346010-006-AT   RURAL BUSINESS-           06/25/10     6           1           3, 4, 6, 7, 8        0
                COOPERATIVE SERVICE’S
                INTERMEDIARY RELENDING
                PROGRAM
34601-0015-TE   NATIONAL REPORT ON B&I    09/30/03     4           0            1, 2, 5, 9          0
                LOAN PROGRAM


                                                        44
                                                                         Recommendation Numbers

                                                                Pending                        Pending
                                                      Total    Monetary          Pending      Management
                                            Issue    Number    Collection      Final Action    Decision
 Audit Number           Audit Title         Date     of Recs    (OCFO)            (OCFO)         (OIG)
34703-0001-32   RECOVERY ACT - BUSINESS   03/29/13      4           0            1, 2, 6, 7        0
                AND INDUSTRY
                GUARANTEED LOANS –
                PHASE 3
34703-0002-TE   RECOVERY ACT - BUSINESS   12/05/11     4           0            1, 2, 3, 4          0
                AND INDUSTRY
                GUARANTEED LOANS,
                PHASE 2
TOTAL                                                  87          3               84               0

RISK MANAGEMENT AGENCY

05099-0025-AT   RMA ADDED LAND POLICY     04/07/06     1           2                0               0

05099-0027-AT   CITRUS INDEMNITY          03/26/07     1           1                0               0
                DETERMINATIONS MADE
                FOR 2004 HURRICANE
                DAMAGES IN FLORIDA
05099-0028-AT   2005 EMERGENCY            03/04/09     5           0                0         2, 3, 4, 8, 11
                HURRICANE RELIEF
                EFFORTS
05099-0029-AT   CITRUS CROP INDEMNITY     09/07/11     1           0                0               2
                PAYMENTS FROM
                HURRICANE WILMA IN
                FLORIDA
05099-0055-TE   1988 AND 1989 SOYBEAN     07/06/92     1          1A                0               0
                LOSSES IN THREE
                ARKANSAS COUNTIES
05601-0001-31   CONTROLS OVER             09/03/13     3           0             1, 2, 5            0
                PREVENTED PLANTING

05601-0004-AT   CROP INSURANCE FOR        03/14/01     2          1, 3              0               0
                SPECIALTY CROPS
05601-0006-KC   RMA FEDERAL CROP          02/22/13     1           0                2               0
                INSURANCE - ORGANIC
                CROPS
05601-0007-TE   WATERMELON CLAIMS IN      08/17/01     1           4                0               0
                SOUTH TEXAS
05601-0015-TE   CROP LOSS AND QUALITY     09/30/08     1           1                0               0
                ADJUSTMENTS FOR
                AFLATOXIN-INFECTED
                CORN
TOTAL                                                  17          7                9               1

GRAND TOTAL                                 99        464         29               407             28




                                                        45
Endnotes:
   • IG Act, Section 5(a)(3) requires the SARC to include “an identification of each significant recommendation described in
       previous semiannual reports on which corrective action has not been completed.”
   • OIG did not validate statistics as reported in OCFO’s Management Information Tracking System (MITS).
   • This information is current as of March 31, 2014.

Terms Used in Table

Pending Collection: Agencies have completed final action, but collections of disallowed costs are still pending and have not been
reported to OCFO.
Pending Final Action: Agencies have agreed to implement OIG’s recommendations, but supporting documentation of final action
has not been provided to OCFO.
Pending Management Decision: Agencies and OIG have not reached agreement on actions to be taken to implement OIG’s
recommendations.




                                                                46
Appendix A.11—Information Described Under Section 804(b) of the Federal Financial Management
Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) requires agencies to annually assess
whether their financial systems comply substantially with (1) Federal Financial System Requirements,
(2) applicable Federal accounting standards, and (3) the Standard General Ledger at the transaction level. In
addition, the Federal Information Security Management Act of 2002 (FISMA) requires each agency to report
significant information security deficiencies, relating to financial management systems, as a lack of substantial
compliance with FFMIA. FFMIA also requires auditors to report in their annual Chief Financial Officer’s Act
financial statement audit reports whether financial management systems substantially comply with FFMIA
requirements.

For FY 2013, USDA reported that it was not substantially compliant with FFMIA with regards to accounting
standards, the Standard General Ledger at the transaction level, and FISMA requirements. The Department
continues to move forward with remediation plans to achieve compliance by the end of FY 2014 for
longstanding Departmentwide weaknesses related to systems security as well as noncompliance with
accounting standards and the Standard General Ledger related to two component agencies. OIG will assess
that progress, as required, during its audit of the Department’s FY 2014 financial statements. That audit is
currently in process. At this time, OIG is not aware that USDA, or its component agencies CCC and NRCS, have
not met any intermediate target dates established in their remediation plans.




                                                       47
Appendix B—Investigation Tables

Appendix B.1—Summary of Investigative Activities–October 2013-March 2014

                                                       Cases Opened                                                  163
              Reports Issued: 178
                                                       Cases Referred for Prosecution                                115
                                                       Indictments                                                   312
                                                                    a
                                                       Convictions                                                   270
              Impact of Investigations
                                                       Searches                                                      154
                                                       Arrests                                                       507
                                                                              b
                                                       Recoveries/Collections                                       $6.6
                                                                   c
                                                       Restitutions                                                $37.2
                                                             d
                                                       Fines                                                        $2.0
                                                                         e
       Total Dollar Impact (Millions): $231.8          Asset Forfeitures                                            $9.3
                                                                           f
                                                       Claims Established                                         $172.6
                                                                       g
                                                       Cost Avoidance                                               $4.1
                                                                                h
                                                       Administrative Penalties                                     $0.0
                                                       Employees                                                      22
          Administrative Sanctions: 182
                                                       Businesses/Persons                                            160
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies
widely; therefore, the 270 convictions do not necessarily relate to the 312 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Asset forfeitures are judicial or administrative results.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  Consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of
OIG findings.




                                                                  48
Appendix B.2—Indictments and Convictions

From October 1, 2013 through March 31, 2014, OIG completed 178 investigations. We referred 115 cases to
Federal, State, and local prosecutors for their decision.

During the reporting period, our investigations led to 312 indictments and 270 convictions. The period of time
to obtain court action on an indictment varies widely; therefore, the 270 convictions do not necessarily relate
to the 312 indictments. Fines, recoveries/collections, restitutions, claims established, cost avoidance, and
administrative penalties resulting from our investigations totaled about $231.8 million. The following is a
breakdown, by agency, of indictments and convictions for the reporting period.

Table 12: INDICTMENTS AND CONVICTIONS—October 1, 2013-March 31, 2014

                  Agency                        Indictments               Convictions*
                   ARS                                2                        1
                  APHIS                               7                       19
                   FNS                              269                       217
                     FS                               2                        0
                    FSA                              17                       18
                   FSIS                               1                        8
                   NRCS                               0                        1
                   RBS                                4                        2
                   RHS                                2                        2
                   RMA                                8                        2
                  Totals                            312                       270
* This category includes pretrial diversions.




                                                              49
Appendix B.3—OIG Hotline

The OIG hotline serves as a national intake point for reports from both employees and the general public of
suspected incidents of fraud, waste, mismanagement, and abuse in USDA programs and operations. During
this reporting period, the hotline received 2,086 complaints, which included allegations of participant fraud,
employee misconduct, and mismanagement, as well as opinions about USDA programs. The following tables
are a summary of the Hotline complaints for the first half of FY 2014.

Number of Complaints Received

 Type                                                                 Number
 Employee Misconduct                                                       95
 Participant Fraud                                                      1,702
 Waste/Mismanagement                                                      201
 Health/Safety Problem                                                     14
 Opinion/Information                                                       73
 Bribery                                                                    1
 Reprisal                                                                   0
 Total Number of Complaints Received                                    2,086

Disposition of Complaints Received

 Method of Disposition                                                                  Number
 Referred to OIG Audit or Investigations for
 Review                                                                                       88
 Referred to Other Law Enforcement Agencies                                                    5
 Referred to USDA Agencies for Response                                                      343
 Referred to FNS for Tracking                                                              1,372
 Referred to USDA or Other Agencies for
 Information—No Response Needed                                                              229
 Filled Without Referral—Insufficient Information                                             43
 Referred to State Agencies                                                                    6




                                                      50
Appendix C—Freedom of Information Act Activities

Table C.1—FOIA and Privacy Act (PA) Requests for the period October 1, 2013 through March 31, 2014

Categories                                  Type                                              Number
                                              FOIA/PA Requests Received                        54
                                              Granted                                           1
         FOIA/PA Requests
                                              Partially Granted                                 8
        Received/Processed
                                              Not Granted                                       25
                                              Total FOIA/PA Requests Processed                  34
                                              No Records Available                              15
                                              Referred to Other Agencies                        0
                                              Requests Denied in Full Exemption 5               1
                                              Requests Denied in Full Exemption 7(A)            3
                                              Requests Denied in Full Exemption 7(C)            3
           Reasons for Denial                 Request Withdrawn                                 1
                                              Fee-Related                                       1
                                              Not a Proper FOIA Request                         0
                                              Not an Agency Record                              0
                                              Duplicate Request                                 0
                                              Other                                             2
    Requests for OIG Reports from             Received                                          0
        Congress and Other                    Processed                                         0
       Government Agencies
                                            Appeals Received                                    3
                                            Appeals Processed                                   3
                                              Completely Upheld                                 1
               Appeals                        Partially Reversed                                1
                                              Completely Reversed                               1
                                              Requests Withdrawn                                0
                                              Other                                             0
                                            OIG Reports/Documents Released in                   7
                                            Response to Requests
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 19 audit reports were posted online on the OIG website:
http://www.usda.gov/oig




                                                               51
                                                   Abbreviations

Abbreviation   Full Name                                           TANF    Temporary Assistance for Needy
AMS            Agricultural Marketing Service                              Families
APHIS          Animal and Plant Health Inspection                  TIGTA   Treasury Inspector General for Tax
               Service                                                     Administration
ARS            Agricultural Research Service                       USAID   U.S. Agency for International
                                                                           Development
BFDL           In re Black Farmers Discrimination
               Litigation                                          USDA    U.S. Department of Agriculture
CACFP          Child and Adult Care Food Program                   WIC     Special Supplemental Nutrition
                                                                           Program for Women, Infants, and
CCC            Commodity Credit Corporation
                                                                           Children
CIGIE          Council of the Inspectors General on
               Integrity and Efficiency
EBT            electronic benefits transfer
FAS            Foreign Agricultural Service
FBI            Federal Bureau of Investigation
FCIC           Federal Crop Insurance Corporation
FFMIA          Federal Financial Management
               Improvement Act of 1996
FISMA          Federal Information Security
               Management Act
FOIA           Freedom of Information Act
FNS            Food and Nutrition Service
FS             Forest Service
FSA            Farm Service Agency
FSAN           Financial Statement Audit Network
FSIS           Food Safety and Inspection Service
FY             fiscal year
IG             Inspector General
IRS            Internal Revenue Service
IRS-CI         Internal Revenue Service-Criminal
               Investigation
IT             information technology
NASS           National Agricultural Statistics Service
NIFA           National Institute of Food and
               Agriculture
NRCS           Natural Resources Conservation
               Service
OAO            Office of Advocacy and Outreach
OCFO           Office of the Chief Financial Officer
OCI            Office of Compliance and Integrity
OCIO           Office of the Chief Information Officer
OIG            Office of Inspector General
OPPM           Office of Procurement and Property
               Management
PA             Privacy Act
PVO            private voluntary organization
RBS            Rural Business-Cooperative Service
RD             Rural Development
RHS            Rural Housing Service
RMA            Risk Management Agency
SARC           Semiannual Report to Congress
SNAP           Supplemental Nutrition Assistance
               Program
SSA            Social Security Administration
TAAF           Trade Adjustment Assistance for
               Farmers
                                                          52
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS FOR REPORTS ISSUED DURING THIS
REPORTING PERIOD (74 TOTAL)

      RBS should review its programs to eliminate duplication, reduce its risk of making improper payments,
       and ensure that its resources are used prudently.
      FAS needs to establish a comprehensive management control environment for Section 632(a) funds
       used for agricultural capacity-building activities abroad.
      NASS must better enforce critical procedures and physical security measures meant to protect the
       security of NASS information so that sensitive information is not leaked before its official release.


OIG MISSION


OIG assists USDA by promoting effectiveness and integrity in hundreds of Department programs. These
programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and
plant health, agricultural production, agricultural product inspection and marketing, rural development,
research, conservation, and forestry. They affect our citizens, our communities, and our economy.


OIG STRATEGIC GOALS


We have focused nearly all of our audit and investigative direct resources on our three goals:
      Strengthen USDA’s ability to implement and improve safety and security measures to protect the
       public health as well as agricultural and Departmental resources.
      Reduce program vulnerabilities and strengthen program integrity in the delivery of program assistance.
      Provide USDA with oversight to help it achieve its results-oriented performance.
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
